<html>
<title> - EXPANDING AMERICAN TRADE WITH ACCOUNTABILITY AND TRANSPARENCY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     EXPANDING AMERICAN TRADE WITH
                    ACCOUNTABILITY AND TRANSPARENCY

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

                          Serial No. 114-FC04

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                                __________
                                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-183 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

                       JOYCE MYER, Staff Director

                  JANICE MAYS, Minority Chief Counsel


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of April 22, 2015 announcing the hearing................     2

                               WITNESSES

The Honorable Jacob J. Lew, Secretary, United States Department 
  of the Treasury................................................    10
The Honorable Penny S. Pritzker, Secretary, United States 
  Department of Commerce.........................................    16
The Honorable Thomas J. Vilsack, Secretary, United States 
  Department of Agriculture......................................    20

                       SUBMISSIONS FOR THE RECORD

Letter from certain American film and television companies.......    70
The Alliance for Healthcare Competitiveness, statement...........    72
American Apparel & Footwear Association, statement...............    78
American Chemistry Council, letter...............................    80
Center for Policy Analysis on Trade and Health, statement........    82
Distilled Spirits Council of the United States, Inc., statement..    93
LeadingAge, letter...............................................    96
National Farmer's Union, statement...............................    97
The Representative of German Industry and Trade, statement.......   101

                        QUESTIONS FOR THE RECORD

The Honorable Penny S. Pritzker..................................    64

 
                     EXPANDING AMERICAN TRADE WITH
                    ACCOUNTABILITY AND TRANSPARENCY

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                            Washington, DC.
    The committee met, pursuant to call, at 3:10 p.m., in Room 
1100, Longworth House Office Building, the Honorable Paul Ryan 
[chairman of the committee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 ---------
                                 
    Chairman RYAN. The hearing will come to order.
    Welcome to the Ways and Means Committee hearing on 
expanding trade with accountability and transparency with our 
Secretaries Lew, Pritzker, and Vilsack.
    I want to welcome all of our members back into our hearing 
room. It has been all year long since we have been in here. If 
anybody has any concerns or complaints about the decoration, I 
would like you to send your emails to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c785d4a597f5d514c7c4c4e554a5d48594f595f48534e125f535112">[email&#160;protected]</a>
    So it is nice to finally be back in our hearing room. You 
will notice we have a new sound machine because this is also 
the alternative floor.
    A couple housekeeping items. First, under the rules of the 
House, the chairman is responsible for maintaining order and 
preserving decorum in the committee room. I expect the audience 
members to be respectful of the witnesses and the public.
    First of all, I want to thank our witnesses for coming. I 
want to thank the ranking member for waiving the 7-day rule to 
allow this hearing to take place. I want to thank Secretary 
Lew, Secretary Pritzker, and Secretary Vilsack. Very interested 
in hearing your testimony.
    But before we start, I would like to say a few words about 
why today's topic is so important. Why do we need to establish 
trade promotion authority? What is the point of all of this? 
Well, for me, it comes down to two things: promoting American 
trade and restoring American leadership.
    Right now, we are negotiating the biggest trade deal in 
history, the Trans-Pacific Partnership. It alone will cover 40 
percent of the world economy--our economy and 11 others, 
ranging from Japan and Malaysia to Canada. Now, I have talked 
to a lot of people from these countries--elected officials, 
businessmen, activists--and the question on everybody's mind 
is, can the United States close the deal? Can we drive a hard 
bargain? Will we keep our word? Do we have staying power? Or 
should the world look elsewhere for leadership?
    That is why we need to establish trade promotion authority. 
TPA will send a signal to the world: The United States will not 
retreat. The United States will stay engaged. And, once we 
present a united front, our credibility will get a major boost. 
Our trading partners will know that we are trustworthy. Our 
rivals will know that we are serious. And the American people, 
most importantly, will know that this trade agreement is a fair 
deal for them because they will have the information they need 
to decide for themselves.
    A lot of people have said that trade agreements have been 
too secretive. I agree. That is why TPA will make the 
negotiations much more transparent and much more accountable. 
Under TPA, any Member of Congress will be able to read the 
negotiating text. In fact, TPA will require the administration 
to post the full text of the agreement at least 60 days before 
signing the deal so that the American people can read it for 
themselves.
    And, most important, TPA makes very clear Congress has the 
final say. If the administration fails to meet its obligations, 
Congress can hit the brakes, cancel the vote, and stop the 
agreement.
    But we need to move. Because if you are not moving forward 
in trade negotiations, you are actually falling behind. In the 
first 10 years of this century, the countries of East Asia 
negotiated 48 trade agreements--48 trade agreements since the 
year 2000 in Asia alone--and the U.S. has been a party to 2 in 
the region. And, as a result, our share of East Asia's imports 
fell by 42 percent. Every one of our trade competitors did 
better--every single one.
    And while we are sitting on the sidelines, guess what? 
China is negotiating agreements all around the world. They are 
writing the rules that give kickbacks to government-owned firms 
and stack the deck against American job creators.
    So the question comes down to this: It is unquestionable 
that the rules of the global economy are being written; the 
question is, who is going to write them? Are we going to write 
them with our allies, with our trade partners? Or will China 
write them to benefit China?
    The fact is we are the only country that can do this. We 
are the only country that can tear down barriers to American 
exports and win a fair deal for the American worker. We are the 
only country that can stand up for free enterprise and for the 
rule of law.
    We know these are serious times, and we know that the 
stakes are high. They call out for leadership--bipartisan 
leadership. And I want to pass this bill because I want 
Americans to answer that call.
    And, with that, I would like to yield such time as he may 
consume to the ranking member, Mr. Levin, for his opening 
statement.
    Mr. LEVIN. Thank you.
    And welcome, everybody.
    How do we turn this off?
    Chairman RYAN. The floor?
    Mr. LEVIN. Yeah, how do we turn off the floor?
    Chairman RYAN. Let me figure it out.
    Mr. LEVIN. Thank you, Mr. Chairman.
    Chairman RYAN. I honestly don't know how to turn it off.
    Mr. LEVIN. And, again, welcome.
    Along with colleagues on this committee and throughout this 
Congress, I have been working to achieve a Trans-Pacific 
Partnership that could gain broad bipartisan support. We have 
laid out TPP issues and specific proposals on how they can be 
effectively addressed. There has been no effective response in 
so many cases. So TPP is now on the wrong track in key areas, 
so it should not be fast-tracked.
    This trade promotion authority bill does nothing to get us 
there. The negotiating objectives within that TPA bill are 
almost identical to those of the dead-on-arrival TPA bill that 
was introduced a year ago and are so broad that they don't 
begin to address the outstanding issues within the TPP 
negotiations.
    We have made it clear that it is imperative that there be a 
currency obligation in the TPP, but the objective within the 
TPA bill says nothing that will change the status quo. Currency 
manipulation by Japan in the 1990s and by China in the last 
decade have cost millions of middle-class American jobs--
millions. Yet this TPA and the position of the administration 
means no specific provision within TPP, nor addressed through 
separate legislation, even though a majority of the Members of 
the House and Senate have urged action.
    On the issue of investment in ISDS, concerns have grown 
exponentially, and cases have proliferated in the 12 years 
since the last TPA was passed. Yet the negotiating objective 
within the Hatch-Wyden-Ryan TPA is identical to 12 years ago. 
That is a major problem because, again, the status quo.
    We have made major progress in recent FTAs on the issue of 
labor by including enforceable international labor standards. 
Yet this bill does not address at all what needs to be done to 
bring countries like Vietnam and Mexico, as well as Malaysia 
and Brunei, into compliance with those international labor 
standards, which affects the jobs of American workers.
    Our workers do not compete on a level playing field with 
Mexican workers. Right now, Mexico does not adhere to the ILO 
standards. Today, there is zero assurance that it will. These 
are issues of vital importance to the middle class and American 
jobs.
    On the issue of auto and market access in Japan, the bill 
is so broad that it states simply, and I quote, that the U.S. 
``should expand competitive opportunities for exports of 
goods,'' end of quote. Missing is any guidance on how to truly 
open the Japanese automotive market, which is so closed that 
only 6 in 100 vehicles that are sold there are made outside of 
Japan, while our market has been totally open to Japanese 
vehicles for decades.
    With so many issues within the TPP needing to be improved, 
all that this bill does is give away the leverage of Congress 
to make the agreement better. The outcome of these issues will 
decide the merits of TPP, yet this bill only serves to suggest 
that their resolution doesn't really matter very much at all.
    TPP is too important to leave open so many key issues and 
essentially leave out a meaningful role for Congress. That is 
not the way to get TPP right, which I want. It is not the way 
to get a TPP with broad bipartisan support, which I very much 
want. Real congressional power is not at the end of the 
process; it is right now, when the critical outstanding issues 
are being negotiated.
    My colleagues on the other side of the aisle repeat often 
that the administration needs TPA to get, in quotes, ``the best 
deal.'' But you only get the best deal if you are seeking the 
right things, and not by loss of congressional leverage, making 
it more likely that we will end up with less. And, right now, 
on so many unresolved issues, USTR is not seeking the strongest 
outcome, and this TPA bill does not change that. So it is very 
unwise for Congress to give up our leverage so that we take 
steps to get a better trade deal.
    I plan to offer an alternative to this TPA at tomorrow's 
markup that puts TPP on the right track, providing a path 
forward to an agreement that will garner broad bipartisan 
support in this Congress.
    Thank you, Mr. Chair.
    Chairman RYAN. Thank you, Mr. Levin. We will have plenty of 
time to debate the merits of these issues, but we obviously 
have a difference of opinion on these issues.
    I want to thank the three Secretaries for coming. The 
committee has received your written statements, so I would just 
ask if you could summarize your written statements, which will 
be included in the record, to 5 minutes so we can get on with 
the Q&A.
    With that, Secretary Lew, if you could start us off, you 
are recognized.

STATEMENT OF THE HONORABLE JACOB J. LEW, SECRETARY, DEPARTMENT 
                        OF THE TREASURY

    Secretary LEW. Thanks very much, Mr. Chairman, Ranking 
Member Levin, Members of the Committee. It is good to be here 
today to discuss trade promotion authority.
    At the Department of Treasury, we have been working hard on 
the trade agenda and bolstering economic growth and stability. 
Today, exports make up roughly 30 percent of global GDP, and 
global per capita incomes are over 50 percent higher than they 
were 20 years ago. These macroeconomic gains are due, in part, 
to the rules-based trading system that boosts U.S. and global 
exports of goods and services and opportunities for American 
workers even as it raises the standard of living for consumers.
    Reducing trade barriers and securing reforms abroad through 
well-crafted trade agreements benefits both U.S. economic 
competitiveness and global economic prosperity. First, our 
firms and workers benefit as our partner countries open their 
markets to imported goods and services. Second, as countries 
open up to trade, over time they innovate more, invest more, 
and become more productive. The result is a stronger and more 
stable global economy, and that is also good and important for 
American businesses and workers.
    For all the reasons I just described, we believe it is 
important to continue the long tradition of close bipartisan 
cooperation between Congress and the executive branch through 
trade promotion authority. TPA is critical in helping secure 
the substantial economic gains that our ambitious trade and 
investment agreements can bring. TPA sends a strong signal to 
our trading partners that Congress and the administration speak 
with one voice to the rest of the world on our priorities.
    Since the first trade negotiating legislation in 1934, 
trade authority has been renewed or revised by Congress on 18 
different occasions. The legislation introduced by Chairman 
Ryan and Senators Wyden and Hatch is both the continuation of 
that tradition and a significant strengthening.
    TPA is fundamentally an exercise in congressional 
oversight. Through TPA, Congress puts in place the requirements 
that Congress wants to see followed through trade negotiations, 
lays out the priorities Congress wants to see negotiated in 
trade agreements, and establishes the procedures Congress will 
use for consideration of trade legislation.
    The TPA legislation currently before Congress includes a 
number of important leaps forward in trade policy. It updates 
negotiating objectives to reflect the consensus on trade that 
has emerged over the last decade, such as the need to address 
labor and environmental issues, to take on unfair competition 
from state-owned enterprises, and to protect a free and open 
Internet.
    It requires increased transparency during trade 
negotiations, mandating by law that trade agreements be made 
public months before the President can sign them and months 
more before Congress is asked to consider them.
    It creates new opportunities for congressional oversight 
and engagement. It includes strong sovereignty safeguards that 
make it absolutely clear that nothing in our trade agreements 
can change U.S. law without congressional approval.
    And it requires that trade agreements encourage good 
governance and the rule of law, which are key to promoting 
democracy.
    We support the TPA bill introduced by Chairman Ryan, 
Senators Hatch and Wyden, which includes a strong currency 
objective that goes well beyond the 2002 TPA. Specifically, it 
elevates currency to a principal negotiating objective. It sets 
clear expectations regarding standards that our trading 
partners should meet, and it sets forth mechanisms that will 
help ensure that our trading partners will be held accountable.
    We strongly agree with Members of Congress that unfair 
currency practices need to be addressed. Since day one, the 
President has been clear that no country should grow its 
exports based on a persistently undervalued exchange rate, and 
currency has been at the top of Treasury's international 
agenda. We share the goal of moving major economies to market-
determined exchange rate systems that are transparent, 
flexible, and reflect underlying economic fundamentals.
    Our TPP counterparts are also aware of congressional 
interest in addressing currency practices through the TPA 
legislation. We have formally consulted with our TPP partners 
in the last week, and they have indicated willingness to 
discuss those concerns. Nonetheless, our partners also firmly 
stated that the introduction of enforceable currency provisions 
in the context of trade agreements will undermine ongoing 
efforts to address currency issues and force them to reconsider 
TPP negotiations.
    We, too, have serious concerns that the inclusion of 
enforceable currency provisions in trade agreements would be 
counterproductive. There is a significant risk that others 
would seek to use such provisions to impinge on U.S. 
macroeconomic policy management. And, given the deep 
reservations held by our trading partners, seeking enforceable 
currency provisions would likely derail the conclusion of the 
TPP.
    We also strongly oppose legislation that attempts to use 
the trade remedy process to address currency undervaluation. 
Such legislation would be viewed as inconsistent with our 
international obligations, and we would expect other countries 
to pursue retaliatory measures by introducing similar 
approaches that would hurt our exporters.
    We are working tirelessly to address currency concerns, and 
our efforts through bilateral and multilateral engagement have 
met with considerable success. Japan and other G-7 countries 
have publicly affirmed that they will not target exchange rates 
and that fiscal and monetary policies will remain oriented 
toward meeting domestic economic objectives using domestic 
policy instruments. G-20 members have also pledged to move more 
rapidly toward more market-determined exchange rate systems and 
flexibility in order to reflect underlying economic 
fundamentals, avoid persistent exchange rate misalignments, not 
target exchange rates, and refrain from competitive 
devaluations.
    We have also successfully pressed the IMF to strengthen its 
surveillance of its members' exchange rate policy obligations. 
We have made progress with China on the exchange rates through 
our strategic and economic dialogue as well as our multilateral 
engagement, and we continue to raise the issue regularly with 
our Chinese counterparts.
    On a trade-weighted basis, the RMB has seen a real 
effective appreciation of nearly 30 percent since China allowed 
its currency to resume appreciation in mid-2010. RMB 
appreciation has contributed to a decline in China's current 
account surplus from a peak of 10 percent of GDP before this 
administration took office to just 2 percent of GDP last year.
    We will continue to intensify our efforts on exchange rates 
using the tools and channels that are most effective. While we 
have made real progress, we believe more is needed, and 
Treasury will continue to engage with Congress on how best to 
address currency issues in a way that is consistent with our 
overall strategy of multilateral engagement and bilateral 
engagement.
    The passage of bipartisan TPA legislation is an important 
step towards entering into trade agreements that expand 
opportunities for American businesses, create high-quality 
jobs, and further unlock the gains from expanded trade and 
investment in the 21st-century economy. We look forward to 
working with Congress to make this possible, and I look forward 
to answering your questions.
    Thank you.
    [The prepared statement of Mr. Lew follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 --------
    Chairman RYAN. Thank you.
    Secretary Pritzker.

   STATEMENT OF THE HONORABLE PENNY S. PRITZKER, SECRETARY, 
                     DEPARTMENT OF COMMERCE

    Secretary PRITZKER. Thank you, Chairman Ryan, Ranking 
Member Levin, and Members of the Committee. Thank you for the 
opportunity to discuss the bipartisan congressional Trade 
Priorities and Accountability Act of 2015--legislation that is 
good for America's economy, for America's businesses, and for 
America's workers.
    At the Department of Commerce, we work every day to create 
the conditions for U.S. companies to compete at home and 
abroad. As Secretary, I have met with more than 1,600 CEOs and 
business leaders from across the country. These executives know 
that 96 percent of the world's customers live outside our 
borders. They see the reality of integrated supply chains and 
appreciate that we must reduce barriers.
    Whether they employ 20 workers or 200,000 workers, these 
leaders view exports as essential to reaching new markets and 
creating more good-paying jobs--American jobs. When I ask 
business leaders what Washington can do to help them grow, they 
tell me time and again, ``We need new free trade agreements.'' 
To create sustainable growth for our companies, for our 
workforce, and for our economy, we must make it possible for 
more American firms of all sizes to sell their goods and 
services abroad.
    Take the opportunity in the Asia-Pacific markets for 
example. The Asia-Pacific middle class is set to grow to 3.2 
billion over the next 15 years--unprecedented in the world. To 
put that in perspective, by 2030, the middle class in the Asia-
Pacific will be nearly nine times larger than the entire U.S. 
population. Expanding into Asia-Pacific markets is an 
opportunity we cannot afford to miss.
    Opening more markets to our goods and services is not 
simply about access for business. It is about more jobs and 
prosperity in our communities. Exports contributed nearly one-
third of our overall growth from 2009 and 2014. Every day, 11.7 
million Americans go to work in jobs supported by exports, 
positions that pay up to 18 percent more, on average, than jobs 
not related to exports.
    These Americans work in companies like DodoCase, a small 
manufacturer of iPad cases in San Francisco; or World Art 
Group, a small publisher of high-quality posters and prints in 
Richmond, Virginia; and Leatherman Tools, a medium-sized 
manufacturer of innovative hand tools in Portland, Oregon. 
These companies are finding success through exports, yet they 
face tariffs of at least 20 percent in markets like Vietnam and 
Malaysia.
    China, by contrast, already has trade agreements with these 
countries among its 17 free-trade partners across Asia. As a 
result, Chinese firms face zero tariffs in most products in 
these fast-expanding markets and have a competitive edge over 
American businesses.
    This debate is not solely about China but the world our 
businesses face today. The world is not standing still. Our 
competitors are racing forward with their trade agendas, and we 
cannot afford to be left behind. We must lead.
    As a former CEO, I know that our companies must sell their 
goods outside their own communities not just to survive but to 
thrive. Put simply, trade agreements are not a nice-to-have for 
businesses; they are a need-to-have.
    Completing strong new trade agreements will level the 
playing field for companies like DodoCase, World Art Group, and 
Leatherman Tools, but these agreements can only be realized if 
Congress does its part by enacting trade promotion legislation, 
setting the guidance needed to negotiate the strongest deals 
possible.
    This administration believes that all workers deserve fair 
wages and a safe workplace. This administration believes in 
protecting our forests and fisheries. This administration 
believes that new trade agreements will allow us to promote 
American values, raise global standards, and maintain the 
competitiveness of our workforce and our businesses.
    I understand and respect some Members have concerns about 
trade agreements. The best way to address those concerns is for 
Congress to lay out clear guidance that gives this 
administration and future administrations the tools to 
negotiate high-quality agreements consistent with our values.
    You can do so by passing trade promotion legislation. This 
is one of our most important votes this Congress will take to 
strengthen our economy. If we get this right, I am confident we 
can keep America more competitive and keep our country open for 
more business.
    Thank you.
    [The prepared statement of Ms. Pritzker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    


                                 -------
    Chairman RYAN. Thank you.
    Secretary Vilsack.

   STATEMENT OF THE HONORABLE THOMAS J. VILSACK, SECRETARY, 
                   DEPARTMENT OF AGRICULTURE

    Secretary VILSACK. Thank you, Mr. Chairman.
    And to the chairman and Ranking Member Levin and Members of 
the Committee, let me align myself with the remarks of my 
colleagues and attempt to summarize very quickly why 
agriculture throughout the United States is favorably inclined 
towards trade promotional authority and trade agreements.
    The past 6 years have been record years for trade promotion 
and export opportunities for American agriculture. In fact, 
since the passage of NAFTA, we have seen a 145-percent increase 
in agricultural trade.
    That may be why 70 agricultural groups and 8 former 
Secretaries of Agriculture, in a bipartisan way, have indicated 
support for TPA and TPP. They understand that we will see, as a 
result of TPA, reduced and eliminated tariffs and structures to 
do so, enforceable SPS proposals, expanded opportunity with an 
expanding middle class that is anxious to have access to high-
value-added agricultural products from the U.S., and balancing 
China's influence in the region.
    We are convinced that this is a multibillion-dollar 
opportunity to expand access and opportunity for America's 
farmers, ranchers, and producers. In turn, we believe that this 
will help to support and create tens of thousands of jobs, as 
well.
    Mr. Chairman, we are anxious to respond to your questions, 
and, in the interest of time, we will get to that.
    [The prepared statement of Mr. Vilsack follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 -------
                                 
    Chairman RYAN. Great. Three minutes and 44 seconds. You 
would have made a great House Member. Thank----
    Secretary VILSACK. No, thank you.
    Chairman RYAN [continuing]. You.
    So let me ask this. We have been talking with our Members 
throughout the year about what do they think went right and 
what do they think went wrong in past trade promotion 
authorities that have been given to past White Houses.
    And, you know, this is authority that we have had since 
FDR. It is critical for the administration to go out and get 
the best deal. Our trade partners aren't going to give us the 
best agreement, their last best offer, if they think that you 
can just take it back to Congress and Congress will just 
rewrite it.
    So we understand that this tool is absolute critical to 
getting the best deal possible for American workers. But we 
also believe that there were some mistakes made in the past 
that need to be improved upon. And so we have new provisions in 
this particular trade promotion authority aimed at a few 
things.
    Number one, we have 150 guidelines. Mr. Levin pointed to 
his concerns with those guidelines. I would simply say the 
guidelines had to be done in such a way that give our 
negotiators room to negotiate. You know, we are not going to 
have 536 negotiators negotiating with 11 different countries. 
We are going to have one negotiator. But that one negotiator, 
the administration, the USTR in particular, we want to make 
sure that they understand what Congress expects of them and the 
process in which we are going to consider this.
    So we also were concerned about Members and their ability 
to access text, their ability to get their questions answered, 
their ability to participate. And so that is why we have new 
provisions in here that gives a Member of Congress and their 
security-cleared staff the ability to not only look at the 
text, query the negotiators, but participate and attend the 
negotiations if they want to.
    But the other point that we were concerned about is we want 
to make sure that the public sees what this is before we are 
even considering it. That is why we have more transparency 
requirements in this law placed upon the White House, so that 
the public has plenty of time to digest what is in these large, 
multilateral trade agreements.
    And so it is a different type of TPA. And if the 
administration does not conform to these procedures, to these 
processes, if it doesn't work within these guidelines, then 
Congress, this committee retains the right to turn TPA off for 
any particular agreement. And that is different. That is a new 
level of accountability that we have added to this.
    So let me just ask you, Secretary Pritzker--because I think 
we could use some reassurance that this administration has a 
very clear grasp of what this Congress is expecting of the 
administration. And I agree with the statements of all three of 
you; I think this is an unprecedented opportunity for us.
    Do you understand the consequences that are laid out in 
this bill if the administration does not meet its TPA 
obligations?
    Secretary PRITZKER. Yes, Mr. Chairman, we do.
    And, in fact, we are very much committed to transparency. 
And we have heard the concerns from many Members of Congress. 
And, as a result, we have had over 1,700 consultations with 
Members of Congress. We have 28 industry advisory councils, 
ITACs, that meet that are made up of members from different 
sectors--small companies, medium-size companies, large 
companies, labor, NGOs--that have been advising us.
    And we also absolutely understand the fact that texts are 
to be made accessible to the committee as well as to make sure 
that the staff has access to the text. And they don't have to 
make an appointment; the texts are up here on the Hill. We very 
much, you know, heard the concern, and we are trying very hard 
to be responsive.
    And then, as you said, in addition, the public will have 
access once the agreements are completed, have time to better 
understand those agreements so that everyone understands what 
we are getting into.
    Chairman RYAN. Thank you.
    Secretary Lew, you went into currency quite a bit in your 
opening. I just want to kind of drill down a little bit more 
because we might very well be considering some amendments on 
this issue as early as tomorrow with our markup.
    So, as you mentioned, for the first time, this bill 
includes as a principal negotiating objective an objective on 
currency that directs the administration to seek a meaningful 
outcome in our trade agreements. The committee worked very 
closely with the Treasury Department while drafting this 
negotiating objective, and I believe it provides the important 
tools that the administration needs to get a better outcome.
    I received a letter from you yesterday, and I wanted to 
talk to you a little bit about that. In it, you updated us on 
the status of your currency negotiations in the TPP. You wrote 
that ``any amendment to TPA legislation requiring that the 
administration only seek enforceable currency provisions as a 
principal negotiating objective would undermine our ability to 
successfully conclude a TPP negotiation.'' So that is one 
pretty darn important point.
    You also wrote that you oppose the current legislation 
``that would use the countervailing duty process to address 
currency undervaluation because it would raise questions about 
consistency with our international obligations and it would be 
counterproductive to our ongoing bilateral and multilateral 
engagement as well as our efforts to promote greater 
accountability on currency policies in that context.''
    So, basically, what I am asking you is, knowing the 
position here, you would oppose amendments to TPA if they were 
being offered--I just want to ask you this for the record--if 
they did such things?
    Secretary LEW. Yes, Mr. Chairman, that is correct.
    Chairman RYAN. Okay.
    Secretary LEW. And let me be clear. We are very sympathetic 
to the concerns raised by Members on currency, as you indicated 
in your opening remarks, as well. I don't think there is a 
disagreement that we need to take tough actions with trading 
partners that do things that are unfair. But we have to do it 
in a way that is effective, and we have to do it in a way that 
doesn't undermine, ultimately, our own interests.
    I believe that the letter states correctly that, having 
over the last week raised this issue with 10 of the 11 
negotiating partners, the reason they are willing to have a 
conversation on currency, in part, is because of the firm 
knowledge that Congress has set it out now as something that is 
going to be a negotiating objective. I don't know that there 
would be the kind of conversation that we are having now--and 
that is why I think TPA is very important. It does send a clear 
signal that this has to be part of the conversation.
    At the same time, I got a very clear signal, in all of our 
conversations we got a very clear signal, that if it was an 
enforceable trade discipline on currency, that that was 
something they wouldn't even be open to discussing. Because for 
many of these countries, there is some form of intervention 
that is a part of legitimate macroeconomic policy, and they are 
worried that legitimate policies could be impaired by a 
mechanism where monetary policy is reviewed in the context of a 
trade enforcement process, which, you know, is something that 
is a legitimate concern.
    On the other hand, they don't have the ability, when we 
engage with them bilaterally or through the existing fora, to 
say that interventions that are persistent and sustained, that 
build up the kinds of surpluses in foreign exchange, that 
create a competitive advantage for them is something that is 
permissible.
    We pushed back very hard, and we are making progress. I 
don't know that we would be able to make the kind of progress 
we are making if we start taking actions that are the kinds of 
actions in these amendments. So I think, you know, there is a 
question of whether the effectiveness of our current tools are 
undermined.
    Chairman RYAN. Yes, I think that is right. No one is 
disputing that manipulation occurs and has occurred and that it 
is wrong and that it is not helpful and it is not good for 
America. We get that. Everybody agrees with that. I guess the 
question is, what is the best way to deal with it? And some of 
these remedies, I think I agree with you, can be more than 
counterproductive, can actually backfire and blow up in our 
faces if we get them wrong. So it is all about finding the 
right tools to respond so that we can get ourselves into a win-
win situation, not a win-lose situation.
    Let me just go to you, Secretary Vilsack, real quickly. 
Yesterday, a new report showed that workers who have jobs 
related to trade earn higher wages than those who do not. 
Manufacturing workers earn 16.3 more. Service workers earn 15.5 
percent more than workers in similar non-trade-related 
occupations.
    So we all want stronger economic growth and more jobs. We 
don't always agree on how to do that, but one area where I 
think we have seen agreement on a bipartisan front is on 
agriculture. We clearly produce more than we can consume here 
in America. So the future for agriculture, the future for good, 
stable prices and good living wages on the family farm and 
keeping family farms in place is opening more markets for our 
products.
    This is an area where, with respect to TPP and with respect 
to the trade guidelines we have in TPA, we want to make a huge 
effort in. And we already provide a fairly open system and 
access to our markets for countries sending us their products, 
but we don't have anything close to reciprocal treatment to our 
agricultural exports.
    Give us a sense of how unlevel that playing field is with 
respect to some of these countries on their tariff rates, on 
their non-tariff barriers, and how, if we can get more of a 
reciprocal treatment, that could be a big boon to agriculture.
    Secretary VILSACK. Mr. Chairman, our farmers do, in fact, 
face some fairly significant barriers. In poultry, there are 
tariffs are as high as 240 percent. In corn, it could be 40 
percent; wine, 55 percent. Vegetables can be as high as 90 
percent; citrus, 43 percent.
    The reality is a lot of the commodities that we currently 
raise in this country are absolutely dependent on exports. 
Fifty percent of our wheat crop, 50 percent of our rice crop, 
50 percent of our soybean crop, 80 percent of our cotton crop, 
even 70 percent of the tree nuts that are produced in this 
country are exported.
    That is why it is so important that we get a level playing 
field, reducing and eliminating tariffs and science-based SPS 
requirements. With that, America producers will compete very 
effectively. Without it, we are obviously behind.
    Chairman RYAN. Thank you.
    Mr. Levin.
    Mr. LEVIN. Thank you.
    And, again, welcome.
    You know, a lot of us have been working for a TPP we could 
support. And I say this respectfully, as to currency, Mr. 
Secretary. We have been friends for a long time. The country 
needs more than sympathy on this issue, and we need to do more 
than get it. The problem has been that, for decades, we were 
not able to take action that really impacted the manipulation 
of other countries, and our workers and businesses got 
desperately hurt.
    And I just think it is a serious mistake to overstate what 
is in this negotiating objective. Because, after listing what 
is wrong with currency manipulation, it says that actions shall 
be taken through cooperative mechanisms, enforceable rules, 
reporting, monitoring, transparency, or other means as 
appropriate. So that doesn't say anything specifically. ``Other 
means as appropriate.''
    And we know you care. And we have talked about this a lot. 
But, essentially, what we are left with, with this negotiating 
objective, is more of the status quo. That is all that is 
guaranteed.
    And let me just say a word about workers' salaries. It is 
true that workers' salaries in industrial areas, those salaries 
are higher than in other areas. It is also true that, in part 
because of trade, not only because of it, that there has been 
stagnation of wages for workers in this country--stagnation for 
30 years. And no one has said that trade is the only cause of 
it, but it makes a mistake to essentially ignore it.
    And that is why we have raised the issue in terms of worker 
standards and in terms of Mexico and Vietnam. There are 
supposed to be what are called consistency plans on workers, 
Vietnam and Mexico. Do any of you have any idea, the status of 
those plans?
    Secretary LEW. Congressman, obviously, we are not 
negotiating that specific provision, but let me answer in a 
general way.
    In the labor standards section, what it requires is that 
anyone who signs the agreement comply with the International 
Labor Organization standards, and there is a process for that 
to be enforceable. Obviously, for each country, there is going 
to be a different path towards enforcement, but we are talking 
about countries for whom this is a huge step, making the 
commitment to meet the higher standards.
    And when you look at the competitive disadvantage the 
United States has with such high standards--I am proud of our 
high standards--bringing other countries from a very low level 
up is going to make it more competitive for American 
businesses.
    Mr. LEVIN. I agree. I agree. And that is why when we put 
together, Mr. Rangel and I, with support of others, the Peru 
free trade agreement, we required that changes be made in their 
laws and practices before we voted. And we did the same with 
Colombia before we voted. And so where is the consistency plan?
    And I am in favor of transparency. The problem is, I must 
say, at this moment, voting on TPA, we have no real idea where 
on this it is going.
    And the same is true in so many areas. You mentioned state-
owned enterprises. We have no idea what the exceptions will be 
asked for and agreed to. The same is true, as we sit here, in 
terms of the Japan automotive provision.
    And, Mr. Secretary, let me close; I have just a few 
seconds. Do you know what Japan has agreed to in terms of their 
tariff reductions on our five or six major crops? And can you, 
if you know that, tell us what they are today?
    Secretary VILSACK. Congressman, I can tell you that the 
negotiations are ongoing. I can tell you that there has been 
progress with Japan in terms of opening up their markets. I 
think they recognize and appreciate that they have to make some 
changes in a market that has been closed for far too long.
    And I think, when all is said and done, the negotiating 
principles and objectives that are laid out in the TPA 
legislation, as it relates to reduction and elimination of 
tariffs, you will see that with reference to Japan.
    Mr. LEVIN. Okay. I just want to finish. What the objective 
says is to eliminate or reduce tariffs in agriculture. That is 
a meaningless objective. Because Japan started off by saying 
they would reduce. The question is how many they will eliminate 
and how much they will reduce in these key crops. And, as we 
sit here today, about to vote tomorrow on a TPA, we have no 
idea where those discussions are. And the objective, it just 
says reduce or eliminate. It is meaningless. It is a 
meaningless objective. And so that is why, in our bill 
tomorrow, we are going to spell our alternatives, something 
more specific.
    Okay. I have to yield back.
    Thank you very much for giving me this time.
    Chairman RYAN. Thank you. My pleasure.
    Mr. Johnson.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Let me just start by saying trade is very important to the 
State of Texas, and, in fact, our Governor, Greg Abbott, likes 
to say Texas is number one when it comes to exports. So, 
certainly, it is in our interest to open up those foreign 
markets that still put up barriers to American goods and 
services.
    Secretary Lew, welcome. Now, you have heard what I just had 
to say about Texas and trade. And, with that, I have to be up 
front with you, in that we have heard loud criticism from some 
about the lack of congressional consultation and engagement 
with Congress and the public during trade negotiations. As you 
know, the TPA bill includes a number of new provisions to 
ensure that Congress and the public are fully engaged and 
consulted.
    So, for the record, let me ask: Do you agree that TPA 
strengthens congressional-executive consultation?
    Secretary LEW. Are you asking me or Secretary Pritzker?
    Mr. JOHNSON. You.
    Secretary LEW. Congressman, there is no question but that 
the TPA raises the bar from any prior approaches in terms of 
the amount of consultation, the amount of transparency. We have 
made great efforts, USTR has made great efforts to consult 
with--I believe, a record amount of consultation. But that 
doesn't mean we can't do more, and this TPA requires that we do 
even more.
    Mr. JOHNSON. Well, more importantly, is this administration 
committed to following the requirements----
    Secretary LEW. Yeah. We are committed to following the law. 
And we are committed to working with the Congress, more 
importantly, to work together, to make sure that America speaks 
with one voice as we go about agreeing to trade agreements. I 
mean, ultimately, we have to bring any agreement back to this 
Congress, and we need to be able to negotiate with the belief 
that we can get Congress to approve the agreement.
    Mr. JOHNSON. Thank you.
    Secretary Pritzker, I want to ask you about TPA's 
transparency requirement. As you know, TPA requires significant 
transparency, particularly for Members of Congress, throughout 
the process. For example, Members can serve as official 
advisors for trade delegations and personally attend 
negotiating rounds.
    So, Madam Secretary, how does the administration intend to 
comply with these new transparency requirements? And what 
assurance can you give us that the administration will follow 
those requirements?
    Secretary PRITZKER. As Secretary Lew said, we intend to 
comply with the law, and so making sure that Members of 
Congress can have access to texts in the security of their 
office at their convenience or your staff can accompany you, if 
they have appropriate clearance, so that your staff has the 
ability to see the text. And then, you know, the requirement to 
be credentialed is one that is included in TPA, is one that we 
intend to abide by.
    Mr. JOHNSON. Thank you.
    And, Secretary Vilsack, I didn't want you to think you were 
being left behind. You know, while I represent a fast-growing 
district in the Dallas area, I do happen to represent farmers 
and ranchers in the northern part of my district, such as in 
the towns of Princeton and Melissa, which you have probably 
never heard of.
    Do you happen to know what our top ag product from the 
district is?
    Secretary VILSACK. Well, Texas has a very varied 
agriculture. It wouldn't surprise me if there are cotton and 
soybean growers in your district. It wouldn't surprise me if 
there was livestock cattle being raised in your district, or in 
and around your district. And it wouldn't surprise me if you 
had some dairy, as well.
    Mr. JOHNSON. Well, you hit all three, but the main one is 
wheat, believe it or not.
    Unfortunately, as you know, our wheat growers face barriers 
overseas, particularly from countries like Japan. So how will 
TPA and TPP benefit the farmers and ranchers, particularly 
wheat growers? And are we making progress, any real progress, 
with Japan?
    Secretary VILSACK. I would say in two significant ways, 
Congressman. One is reducing and eliminating tariffs, and, two, 
making sure that whatever sanitary or phytosanitary barriers 
are created, that they are science-based, and if they are not 
science-based, TPP would basically provide for a mechanism for 
a quick resolution to reduce those barriers so that you 
wouldn't see the disruption of trade that we currently see.
    And this is another reason for being concerned about the 
Chinese influence in this part of the world. Because China 
does, indeed, have a tendency to create those kinds of SPS 
barriers. If we can surround China with a better system, a 
science-based system, I think we will avoid the disruption in 
the market that we have seen recently.
    Chairman RYAN. Thank you.
    Mr. Rangel.
    Mr. RANGEL. Thank you, Mr. Chair. And thank you for the 
opportunity this committee has to get the views of the 
administration.
    And I want you to know that I agree with almost everything 
you said about the future of the United States and the world in 
terms of trade. I think it means peace, it means prosperity, it 
means security, it means standards, that a country would 
understand that when America speaks it also provides the 
leadership that is expected of us now and also of the future.
    I agree, also, that 535 of us would be a bad group of 
people to be negotiating an agreement. And we have had 
confidence in the past Presidents; I have no reason to believe 
that we shouldn't have confidence in this President.
    Is the agreement for 6 years?
    Chairman RYAN. Yes.
    Mr. RANGEL. So I think Hillary Clinton appreciates the fact 
that this is extended far beyond the time that she has to ask 
for it.
    But having said all of that, when we get back in our 
districts, we have to figure out, why did this constitutional 
authority we have pass on, and how is it going to be good for 
the country?
    So I have looked at this. And with currency manipulation, I 
don't think at my townhall meetings with my underemployed and 
unemployed this is a big deal. But human rights, fighting 
against a bunch of rogue cops shooting down people in complete 
disregard of their human rights.
    As far as investment service, I know that Republicans and 
the President are going to take care of our investors. The 
whole idea, of course, is to make certain that we are able to 
sell more than we consume and that we get out there with the 
market.
    Now, I don't have a problem with that, except that I don't 
know what happens when we get in this profit. I don't know--I 
have to trust the President. In order to trust him, he has to 
have some cooperation with the Republicans and Democrats in the 
House so that, if I was to ask, are there any provisions here 
that, when America succeeds and the profit is there, that this 
big disparity with the CEOs that you have visited, Mr. 
Secretary, who said this is the greatest thing--are there any 
provisions in here that the workers would be beneficiaries? I 
think not.
    Are there any provisions in there that says that, ``And the 
only way we can make this work is to have an infrastructure--
seaports, airports, roads--in order to support the principles 
that we have and to provide for the leadership of the world''? 
I think not.
    You talk about productivity, and I kind of think that means 
that we are going to lose some jobs, but there would be great 
new opportunities. I think so. Are there provisions in this 
bill that Americans will be able to take advantage of that, 
with the training and education and all of these things? I 
think not.
    So what do I have to tell my people that this is good not 
only for the world and the country but it is good for you? 
Well, I think we have TPA. It would be, ``Trust that the 
President is going to do the right thing for America.''
    But if I ask them, is the infrastructure bill included in 
this, they said, no, the Parliamentarian wouldn't allow it. If 
I asked, well, is education, in terms of getting the skills 
that is necessary to perform--no, that is a separate bill.
    But suppose I ask, are the Republican majorities prepared 
to tell the President, if he asks for it, this is a package, 
this is what I promise of you? It is not a question of 
Americans' leadership and profits. This is a question of 
prosperity for the entire country.
    Are there any provisions that you know that are included in 
this package that people would say that I am prepared for the 
new future and the standards for decades in the future? I think 
not.
    Could the President possibly say that he had an agreement 
with the Republicans that it may not be in TPA but take my word 
for it? This is going to bring our Congress together. These 
aren't Democratic proposals; these are Americans proposals. 
Republicans want infrastructure improvement; they want skills. 
Well, then, why can't they say that this is a part of the 
package in or outside of TPA?
    So if there is anyone that can find jobs that I can talk 
about now, if you can find infrastructure provisions in this 
bill that I can talk about now--because the trade bill, without 
being able to export, doesn't count--and if you can find 
anything that would indicate that our constituents won't be 
able to get a job but their kids can damn well depend on the 
fact that they will be ready for competition--and we will get 
to the farmers because that is a second thing. They can make a 
lot of money, but if you have a problem having the income to 
buy fresh food in my district, saying that farmers are going to 
make out won't sell.
    Could we start with Secretary Lew or anybody who wants to 
volunteer at any point of the hearing, where these provisions, 
if they are not in TPA, you would say what agreement do we have 
they come up to be with the bill?
    Chairman RYAN. So let me just interject for a moment, Mr. 
Rangel. You are out of time.
    Mr. RANGEL. I am sorry.
    Chairman RYAN. And I just want to make sure that we can get 
to--we have a lot of people. So we want to make sure, if there 
is a question, we ask it early on in the 5-minute increments so 
people can get their answers in.
    Is there a quick answer that anybody wants to offer?
    Mr. RANGEL. No, there is not.
    Chairman RYAN. Okay. Well----
    Secretary PRITZKER. Why don't I just say, you know, the 
following.
    I mean, I could give you chapter and verse--in fact, we 
have put together a book--of various companies that have 
created jobs because of their exporting. And so that is one 
thing that I could share with you. And, in fact, stories from 
New York are happy to do that.
    Mr. RANGEL. You are not serious.
    Secretary VILSACK. And we have a State-by-State breakdown 
of the benefits to agriculture in each State, which we would be 
happy to provide you.
    Chairman RYAN. Not trying to give you short shrift.
    Mr. RANGEL. Not State by State, but New York City.
    Chairman RYAN. I am just trying to be cognizant of the 
other Members' time.
    Mr. RANGEL. I appreciate it.
    Chairman RYAN. Mr. Tiberi.
    Mr. RANGEL. Thank you so much.
    Mr. TIBERI. Thank you, Mr. Chairman.
    I just want to thank the three of you for being here today 
and for participating and educating us.
    In my State of Ohio, trade becomes a pretty emotional 
issue, particularly during campaign time. And the three of you 
know that.
    One of the amazing statistics, though, with respect to 
countries that we have an agreement with, as you all know, is, 
according to the National Association of Manufacturers, in each 
of the past 2 years, the U.S. manufacturers had a $50 billion 
surplus with trade agreement countries. In Ohio, nearly 60 
percent of Ohio goods and exports went to countries we have an 
FTA with, approximately 20. We export to 200, but 60 percent 
goes to those 20.
    Secretary Pritzker, you happened to visit one in my 
district in western Ohio, Lake Shore. It was founded in a 
basement. The owner founded this business in a basement. High-
tech manufacturer, nearly 200 employees. And what is 
fascinating about it, if you remember, is from the ceiling 
hangs flags of the countries that they export to, most of whom 
are countries that we have FTAs with. Their major competitors 
are in East Asia.
    As you know, Secretary Lew, because you mentioned it, many 
of those countries are joining China in trade agreements. And, 
as you eloquently said, which I don't think the administration 
gets enough credit for, quite frankly, is that those agreements 
with China typically aren't as high a standard as they are, as 
Secretary Vilsack said, with the United States. And so either 
China is going to write the rules of the region and the world, 
or we are going to write the rules with these countries who 
want to trade with us. And each one is a little bit different, 
as you said, Secretary Lew.
    The question that I have--and I won't take up my entire 
time; and I think this is really, really important--is that 
some say we lose leverage, that I lose leverage by passing TPA.
    Chairman Ryan took a CODEL to the Far East and East Asia, 
and we heard from many government leaders who were negotiating 
with us that we are not going to put our best offer on the 
table until you really pass this bill, to know that you are 
serious, and that you give the administration the authority to 
do this.
    But, more than that, Secretary Lew--and you have been 
really engaged in this issue for a long time now--tell us why 
we are not giving up our leverage. Tell us why this 
administration is committed, after TPA is passed by this House 
and the Senate, that you and your colleagues and Ambassador 
Froman are going to continue to negotiate with us.
    And if you would like to answer that, as well, Secretary 
Pritzker, go right ahead.
    Secretary LEW. Congressman, I would just say that these 
negotiating objectives are very important. We know that an 
agreement is going to have to come back that you judge as 
having taken those objectives very seriously.
    That is why we care that the objectives be crafted in a way 
where we can bring back a product that is consistent and why, 
if we don't believe it is possible, we say so.
    The thing that is important to remember is this is the 
procedure for considering a trade agreement. The substance of 
the agreement comes later.
    Mr. TIBERI. Thank you.
    Secretary LEW. And we don't--this does not set an 
irrevocable path. It has to be passed. And I don't believe we 
can pass a trade agreement if we ignore the objectives that 
Congress sets out.
    And there is a tension in----
    Mr. TIBERI. We are all set.
    Secretary LEW [continuing]. When to do TPA. If you do it 
very early in the process, we can't tell you anything about the 
shape of the conversation. If you do it too late in the 
process, then all the decisions have been made.
    We are coming in now, as we approach the final stages, 
where we can show you where we are heading, nothing is agreed 
to until everything is agreed to. We can give you a sense of 
where the agreements are going. We can take your direction, and 
we can go back and complete agreements cognizant of Congress' 
direction.
    Mr. TIBERI. Very well said.
    Anyone add anything?
    Secretary PRITZKER. I would just add, Congressman, that, 
you know, as a former CEO, you want to know the person on the 
other side of the negotiating table. You need confidence that, 
if you go out on a limb to put your best offer in place out 
there, that you are not going to find yourself with no deal and 
having exposed yourself.
    It is no different for the political leaders. And several 
heads of state who are party to TPP have said that. They want 
to know that Congress and the administration are standing 
together, and they want to know what the standards are in order 
for them to take the political risk in their country to put 
their best offer on the table.
    Mr. TIBERI. Thank you.
    Chairman RYAN. Thank you.
    We let the 15-minute vote go down to zero. We have two 5-
minute votes following this. So we will recess subject to the 
call of the chair and--or do you want to--do you want to 
continue? Did you already vote?
    Mr. REICHERT. I voted already.
    Chairman RYAN. Yeah. But you got the 5-minute coming up. 
So----
    Mr. REICHERT. Yeah. I want to be at the 5-minute vote.
    Chairman RYAN. Yeah. I don't want you to miss your vote.
    We will recess subject to the call of the chair for these 
two 5-minute votes and resume shortly thereafter.
    Committee is in recess.
    [Recess.]
    Mr. REICHERT. [Presiding.] The hearing will be called to 
order once again.
    I thought for a minute we were going to do the usual thing 
that Congress does, and that is work in the dark. But somebody 
turned the lights on; so, that is good.
    I am going to recognize Mr. McDermott for 5 minutes.
    Thank you for your patience, panel.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    I think it is safe to say I have been around this place for 
quite a while. It kind of reminds me of an old cattle drive in 
the West. And I have been here for 17 of them. I have voted on 
17 trade bills since I came to Congress in 1989.
    If you look at this dais, there is only six people here who 
were here when NAFTA passed. So there is a lot of history that 
has been lost over the course of time, and I think we need to 
really think about some of what went on then.
    I would like to touch on some of the more prominent trade 
agreements, really, the NAFTA being the one that I think 
epitomizes a lot of what is troubling many of us up here.
    Remember back to '92. In order to appease the labor groups, 
then Bill Clinton said he would negotiate a side agreement on 
labor for the North American Free Trade Agreement, which he 
signed in August of '92, months before his election--or months 
after his election--before his election. It was signed under 
Bush.
    Now, this is the first time that worker rights received 
more than just passing mention in a trade agreement. We had a 
43-page document outlining 11 labor principles, including the 
prevention of occupational injuries and diseases.
    At the signing of the NAFTA agreement in December 1993, 
Clinton said, ``The labor side agreement negotiated by our 
administration will have the agreement of force for social 
progress as well as economic growth.''
    But, since then, the problems with the labor side agreement 
have become exposed. The promises of social progress have not 
lived up to the reality because NAFTA's side agreement was 
weak. It did not force any of the governments that are part of 
the NAFTA to adopt new worker rights--laws or conform to any 
international standards. However, only three of the principles 
were enforceable by sanctions, and the process of bringing a 
case that would result in sanctions takes a long time.
    Another less known, but equally important, issue of NAFTA 
was the explosive growth of the maquiladoras which now dot the 
U.S.-Mexican border. Many on this committee may not have heard 
about maquiladoras--perhaps my friends from Texas and Arizona 
and New Mexico have--but they are factories that import 
materials tax free from the United States, complete work added 
value, and then export the final product back to the United 
States.
    It doesn't sound like a bad idea. But these factories are 
essentially modern sweatshops. The working conditions are 
simply abhorrent. Maquiladora employees face health concerns 
and injuries because of preventible violations of labor rights, 
according to one study, the same rights, I would point out, 
that are in--the very side agreements were created to protect.
    Women who worked in those sweatshops have a three times 
higher incidence of babies being born at low birth weight than 
women in service jobs who lived in the same town. One study 
found the maquiladora workers had upper back, neck, shoulder, 
and hand and wrist pain at incident levels 40 to 90 percent 
above general labor.
    Another study found that children of maquiladora workers 
were three to five times more likely to bear a child that had 
anencephaly, which is a horrible condition that results in a 
baby being born without parts of the brain or skull. They were 
working in chemical factories.
    In addition to failing to protect worker safety, the side 
agreement did nothing to ensure that workers received livable 
wages. Maquiladora workers worked longer hours and received 
lower wages than the national average. One study shows that it 
took a maquiladora worker--1\1/2\ hours to earn enough money to 
buy a kilo of rice. By comparison, a dock worker in San Pedro 
and Los Angeles could earn enough money to buy the same amount 
of rice in 3 minutes.
    Even today the conditions are hardly any better. One family 
profiled in a recent news article about maquiladoras works in 
an air-conditioned factory by day and lives in a dirt floor hut 
by night. The roof of his house, corrugated metal, is hit on by 
rocks, a bear. A single light bulb hangs in the house. Now, 
after working in the sweatshop for a decade, that worker says 
he has no hope for a better life for his children.
    The point I want to make here is that promises that the 
administration makes regarding trade agreements may not always 
end up the way they predict that it will. For the women whose 
children suffered birth defects, the labor rights of the 
agreement did not lead to social progress. For the workers who 
struggle with wages that do not keep up with inflation, they 
did not provide enough money for the basics and do not give 
families the money needed to send their children to schools. 
There is no economic pro for them.
    The TPA agreement has plenty of good-sounding protections 
that the administration says will protect workers, but my 
experience here in the House through 17 of these agreements 
makes me very, very skeptical. As we move toward TPA and TPP in 
the coming days and weeks, I would strongly urge all my 
colleagues on this committee to look at NAFTA, CAFTA, and some 
of the other agreements before they make their vote.
    Mr. REICHERT. Gentleman's time has expired.
    I will yield myself 5 minutes, since I was in line at the 
other end of the dais. I want to thank you all for your 
patience as we were away voting and thank you for your work in 
support of expanded trade.
    This is critical for my home district. As you know, 
Washington State is the most trade-dependent State in the 
country and its trade supports over 77,000 jobs in Washington 
State. $8.6 billion total goods and services and exports in 
2013. So you can see how critical it is.
    And Secretary Lew, I think, testified to, jobs tied to 
trade pay, on average, 15 to 20 percent more than non-trade-
related jobs. So we want to create more of these jobs, and we 
need to pass trade promotion authority in order to do that.
    So I would like to ask just a few questions. First, I want 
to give Secretary Lew an opportunity. I saw you raise your hand 
earlier when Mr. Levin was talking about meaningless language 
in the agreement in TPA, referring to Japan and reducing and/or 
eliminating tariffs.
    Did you want to respond to that? I wanted to give you a 
couple of minutes.
    Secretary LEW. I don't remember raising my hand. I am happy 
to respond if you think----
    Mr. REICHERT. Okay. Maybe it was nodding your head or----
    Secretary LEW. You know, obviously, the final agreements 
have not been reached yet. They are being negotiated. That is 
why Ambassador Froman isn't here today. He has been in Japan. 
And Congress will have a chance to judge based on what the 
reductions are.
    TPA is a process for the consideration of the substance in 
TPP. And as I indicated in response to an earlier question, 
there is a tension between when to vote on TPA and when you 
have enough of the substance of the agreement to know what the 
agreement is going to look like.
    I think we are at the point now where we have shared so 
much that you have a good idea of the direction things are 
heading in, but we now get the guidance and the priorities from 
TPA as we go into the final round of negotiations.
    Mr. REICHERT. I appreciate that. Thank you.
    The legislation calls for our negotiators to seek 
commitments from our trading partners to allow for cross-border 
data flows and to refrain from implementing forced localization 
measures. These are the types of 21st-century barriers that we 
need to address in our trade agreements.
    Secretary Pritzker, could you discuss why this updated 
language is so important to expanding trade.
    Secretary PRITZKER. Well, thank you very much.
    I mean, this bill includes affirmative measures to 
facilitate e-commerce, recognizes the significance of the 
Internet as an international trade platform, as well as it 
works to prevent the blocking of international or cross-border 
data flows. All of these things are necessary for companies in 
order to be able to work in the modern age.
    And so the fact that--you know, the significance of the 
Internet as a trading platform is something that has not been 
recognized. Think about it. Twitter and Facebook didn't exist 
in 2002. So we need to address these issues. They are 
absolutely critical.
    I get more calls from more companies about challenges in 
terms of being required to do local storage of data or cross-
border data flow. So this is imperative, that we address these 
things for business in the 21st century.
    Mr. REICHERT. Thank you.
    Secretary Vilsack, also included in the legislation are 
negotiating objectives related to ensuring strong commitments 
in agriculture from our trading partners, including eliminating 
the improper use of geographic indications and obtaining 
enforceable rules on sanitary and phytosanitary measures. This 
is important for the State of Washington as other States across 
the country.
    How has the U.S. agricultural benefited from previous free 
trade agreements?
    Secretary VILSACK. Well, since the passage of NAFTA, we 
have seen a 145-percent increase in agricultural exports. The 
last 6 years have been the best 6 years in ag exports in 
history. Horticulture--fruits, vegetables, and other 
horticulture items have led the way. We have seen a remarkable 
increase in trade.
    The only impediment is these tariffs and the SBS barriers 
that are constructed by countries for reasons not related to 
science. And our belief is that the TPP, with a high standards 
agreement, is going to reduce and eliminate tariffs and it is 
going to make a process for SBS that is science-based, which 
would absolutely benefit American producers and will help to 
support additional jobs here.
    Mr. REICHERT. Thank you for your answer.
    Mr. Lewis, you are recognized for 5 minutes.
    Mr. LEWIS. Thank you, Mr. Chairman.
    Let me thank each one of you for being here today. I would 
like to get some response from the three of you.
    Do you believe that a trade agreement should reflect the 
value of our Nation? How--let me continue. I ask each of you: 
What does it profit a nation such as the United States of 
America to gain a trade agreement and lose her soul, to lose 
her soul by leaving so many people in America and around the 
world behind when it comes to human rights, labor rights, the 
right to organize, collective-bargain, to protect the 
environment?
    When you travel to some parts of these unbelievable places, 
there are too many people that have been left out and left 
behind. It is not compatible with what we believe in as a 
society and as a people, as a Nation. And I would like to get 
some response from you.
    Secretary PRITZKER. Let me start. Let me begin.
    I do think these trade agreements are consistent, and I 
think TPA is very much consistent with our values in requiring, 
in terms of labor standards, that we include, you know, freedom 
of association, rights of collective bargaining, protection 
from child and forced labor, employment discrimination 
protection. I think this is very much reflective of our values 
as we try to raise the standards around the world of how other 
countries are doing business.
    The same is true in the environment. In the environmental 
objectives, for example, things that are near and dear to the 
heart of the Department of Commerce would be issues around 
illegal fishing or over-fishing and protecting our coastlines. 
Those are objectives to be protected.
    This is the kind of thing that is consistent with the 
standards we hold ourselves to, and what we are asking in these 
agreements and demanding in the agreements is that the 
countries that are party to trade agreements with us do the 
same.
    Mr. LEWIS. Now, Madam Secretary, you go to Vietnam--and I 
have been there--you only have one union, state-sponsored 
union. People are not free to organize another union.
    I hear the case where a young woman tried to organize a 
union. She was arrested and jailed for 4 years. That is not 
freedom of association. That is not freedom to organize.
    Secretary PRITZKER. I appreciate that. But I believe that 
the Vietnamese Government is hoping to use TPP as a way to 
raise the standards.
    Mr. LEWIS. Madam Secretary, we need more--if you want us to 
support this piece of legislation, we need more than hope.
    Secretary LEW. Congressman, I think, if you look at a 
country like Vietnam--I think we all agree Vietnam needs to 
raise its labor standards. And there are conversations going on 
with each of the countries that need to raise their labor 
standards as to what steps they need to take, but it is not 
part of TPA.
    It will be part of agreements that are reached in 
conjunction with TPP. They are going to have to commit to 
meeting higher standards because part of TPP will be committing 
to meet those standards. The question is the path they take to 
get there.
    So I think, with all the concerns that we share about the 
labor conditions and the rights of workers in countries like 
Vietnam, this agreement is not the same as past agreements. It 
puts into the body of the agreement the requirement that they 
comply with the International Labour Organization standards.
    Secretary VILSACK. Can I just simply add one other point, 
Congressman? And that is this is not a static situation. If we 
don't get this done, somebody else will. And the question is: 
Who is that someone else? And the chances are quite good it 
will be China.
    And, frankly, if I have a choice in terms of labor, 
environment, and human rights, the U.S. leading that effort or 
the Chinese leading that effort, every single time I am going 
to pick the U.S.
    Mr. LEWIS. Thank you.
    Mr. REICHERT. Gentleman yields back.
    Mr. Boustany, you are recognized.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    Just to follow on this conversation, just think if 11 
countries, along with the United States, with very disparate 
levels of economic development can come together in a high-
level, 21st-century standard agreement. What an accomplishment 
that will be. I think that fits in with American values.
    And as we look at the U.S. economy, we need growth. We need 
job creation. We want to promote innovation and value creation. 
And, to me, the catalyst for American leadership in all of this 
and for our foreign economic policy is TPA, trade promotion 
authority.
    And this version of TPA is not the 1974 or 1988 or 2002 
version. It is a much enhanced version of this. And I think 
Chairman Ryan raised some of these points earlier with the 
robust expansive consultative process between our negotiators, 
the executive branch, and Congress, the transparency, the 
detailed objectives.
    So I want to explore that further and each of you to 
comment. How does this version of TPA, with all those new 
enhancements, help us get to the best possible agreement? How 
does it create the kind of leverage? How does it put the full 
force of the United States Government and the people of the 
United States behind this kind of high-level, high-standard 
agreement?
    Secretary LEW. Congressman, I would say at the highest 
level--and Secretary Pritzker said this earlier--countries that 
we are negotiating with won't go the final mile until they know 
what it is we need in the end.
    So I think, by putting 150 guidelines in there and by 
sending our chief negotiators out with clear instructions that 
sends a signal that, if he comes back, his team comes back, 
with an agreement consistent with the principles, Congress is 
likely to stand behind it.
    The decisions rest with Congress. So we can't commit 
Congress to act. And Congress will have the vote. But these 
guidelines send a pretty clear signal of what we need.
    Mr. BOUSTANY. Right.
    In the consultative process, as the negotiations are being 
carried out--in other words, under this version of TPA, any 
member of Congress can see the text, understand our negotiating 
position, and weigh in on what the American position should be 
step by step as we go.
    That is pretty powerful. And there should be bipartisan 
support for something like this. And I would submit that the 
stronger the bipartisan level of support, the stronger signal 
it sends to our trading partners who are negotiating with us.
    I don't know if either of the two of you want to comment on 
this or this line of thinking, but----
    Secretary PRITZKER. Well, I would concur with your line of 
thinking. It is really important that we send a strong signal 
that Congress and the administration stand side by side in 
setting the terms and tone for this agreement.
    And the fact that there are so many provisions that support 
transparency is to continually acknowledge that, ultimately, 
the decision rests with Congress. And, therefore, Congress 
needs to be part of the process and brought along as it sees 
fit--as each member sees fit for themselves.
    Mr. BOUSTANY. Secretary Vilsack, I know, as we negotiate 
with Japan and TPP, agricultural products and market access 
with regard to our agricultural products is a big issue. It is 
one of the outstanding issues.
    And, of course, rice is a particularly sensitive issue and 
probably one of the last to be resolved. But this one is 
critically important for the rice industry, which is a big part 
of my State's economy.
    I got positive signals when I was in Japan in March with 
Chairman Ryan and others on the committee that the Japanese 
were waiting on TPA before they will put their best offer on 
the table.
    Is it your belief that that is the case and that we can get 
to an acceptable deal with rice and market access?
    Secretary VILSACK. Well, I know that Ambassador Froman, as 
Secretary Lew indicated, has just finished a round of 
discussions and negotiations with the Japanese. Rice is 
obviously a very critical component to that discussion. And I 
am confident, at the end of the day, we are going to see a much 
better market access opportunity for our rice producers.
    And I would say that these negotiations, to the extent that 
we can continue to reduce and eliminate these barriers, to the 
extent that we can provide a process which science rules on 
sanitary and phytosanitary barriers, we will continue the 
evolution of a trading system that will provide American 
producers expanded opportunity as we have seen in the last 
several years.
    Mr. BOUSTANY. And, Secretary Pritzker, real quickly with 
the time I have remaining, ISDS is something that is really 
important in this. And as we look at the National Export 
Initiative, in trying to expand export opportunities for small 
and mid-sized enterprises, explain why ISDS is so critically 
important and why it is not an infringement on U.S. sovereignty 
or U.S. law, but, in fact, helps our small and mid-sized firms 
with market access issues and their ability to thrive in these 
foreign markets.
    Secretary PRITZKER. Well, ISDS is a mechanism where 
investors, especially small businesses, who are 50 percent of 
the claimants, are able to challenge foreign governments in an 
international arbitration court rather than in a domestic 
court.
    So their opportunity to get a fair hearing, if there has 
been a taking or they have been deprived of the benefit of a 
contract, is really important.
    There is--nothing in ISDS prevents a State from regulating 
health and safety, environment, and other issues that are 
important to regulating one's own nation.
    Mr. BOUSTANY. Thank you.
    I know, in my experience where we have a lot of energy 
companies, these companies have been involved in foreign 
operations and, in the absence of ISDS, they have had serious 
problems with, you know, loss of assets and so forth. So I 
thank you for your answer.
    I yield back.
    Mr. REICHERT. Mr. Becerra.
    Mr. BECERRA. Thank you, Mr. Chairman.
    To all three of you, thank you very much and for your 
patience, since we had to leave for votes.
    Secretary, let me go back to the issue of currency. I know 
you tried to address that, and we appreciate your thoughts on 
that.
    I guess I would ask--I know in your letter that you wrote 
to members you indicated that you share the concerns that there 
are countries that are using different means, in some cases, 
less-than-appropriate means, to try to advance their interests 
around the world when it comes to commerce.
    I would straight out call it currency manipulation. I don't 
think in your letter you used the words ``currency 
manipulation,'' but you did talk about how currency is used in 
different ways by countries. I know you have in the past 
identified some countries that have used currency in the past.
    Let me ask you this: Are we trying to tackle this issue of 
currency manipulation as we speak?
    Secretary LEW. Congressman, we take on this issue of 
currency and unfair practices every time we engage in a 
bilateral or multilateral setting, and we have the results to 
show it.
    I mean, I can't count the number of hours I have spent 
bringing this issue to the attention of other countries, 
saying, ``If you want to have the kind of relationship you want 
with the United States on economic and other grounds, you need 
to deal with this.''
    And we have made real progress. And that doesn't mean we 
are done, and it doesn't mean we can back away from doing it. 
And we are open to having more tools to do it with.
    Mr. BECERRA. And I know you mentioned in your letter that 
China's currency has appreciated some 20, 30 percent in the 
last 4 or 5 years, which, to me, is a signal that, in fact, 
there are countries like China that are manipulating their 
currency to make it look like their products are less costly 
and, therefore, they can sell them for a cheaper price in the 
U.S. compared to American products that would therefore be more 
expensive relative to those Chinese products.
    The concern I have this is this. I appreciate everything 
you are trying to do, but we have been trying to deal with this 
for years. And to say that we are going to keep trying to do 
something means that there will be people and there will be 
countries that will continue to do this.
    And unless we have an effective means to stop it, all we 
can do is hope for the goodwill of these countries to stop 
doing what they have done in the past, which some people--some 
moderate estimates tell us that we have lost some 1 to 5 
million American jobs as a result of currency manipulation.
    So I think, for many of us, for us not to take an 
aggressive approach on currency manipulation is a nonstarter. 
And I know that you have said that the parties to this trade 
deal have said, ``If you try to do''--I will just use your 
words--``All the partners consulted have made clear that they 
will not support the introduction of enforceable currency 
provisions in the context of trade agreements and specifically 
the TPP.''
    So, essentially, they are saying, ``We will talk to you, 
but we won't let you put anything enforceable in the trade 
deal,'' which I think would be a major mistake because we know 
some of these countries have done it and we know others are 
doing it.
    And I just don't believe that there is a satisfactory 
answer to saying, ``We will keep trying to get folks to be--
countries to do the right thing even though we know in the past 
they haven't.''
    Secretary LEW. Well, Congressman, I think we are doing more 
than saying we are trying. We are actually making a difference. 
So the fact that it has been moving in the right direction is a 
reflection of the fact that it makes a difference to engage the 
way we have been engaging.
    And, as I said, we are open to other tools. The fact that 
putting it in a trade agreement where it is enforceable through 
trade remedies is not the same as saying we are not open to 
having more tools.
    Mr. BECERRA. Right.
    But, Mr. Secretary, tell me, how are you going to get these 
partners that want TPP to sit down at a different point in time 
and actually commit to stop manipulating their currency?
    Secretary LEW. Well, you know, they have signed on through 
the G20, many of them, to the principle----
    Mr. BECERRA. Where are the teeth?
    Secretary LEW. Pardon me?
    Mr. BECERRA. Where are the teeth to enforce that?
    Secretary LEW. So if the question is how we are going to 
get them to do better, I think we have shown that we can make 
progress, and we will make more progress.
    Mr. BECERRA. I don't think----
    Secretary LEW. I don't think there is going to be a trade 
agreement that has that in it. So that won't be the way that 
moves them.
    Mr. BECERRA. I don't disagree with you that we will keep 
trying and that there will be ways to improve. Where I disagree 
fervently with the administration and this bill is that this is 
the best chance.
    You have got them where they want to negotiate. They want 
access to our markets. This is the best time when you can make 
a deal because they want something in return. And for us not 
to, when we can strike hardest, get what we need, I think it 
is----
    Secretary LEW. Though, in fairness, our markets are very 
open and we want access to markets that are not very open. So 
the----
    Mr. BECERRA. Let me ask one last question, and I don't 
think I will have time to get an answer. But let me just pose 
the question.
    People keep asking, ``If we don't get in this, if we don't 
reach this deal, which is going to write the rules?'' I ask: 
What happened with CAFTA, the Central American free trade deal? 
What happened with NAFTA? Did we write those rules?
    And we see the consequences of much of what has happened 
with CAFTA and, in some cases, NAFTA. We have got a trade 
dispute with Guatemala in the CAFTA deal where they don't even 
enforce their own law.
    Chairman RYAN. [Presiding.] Time for the gentleman has 
expired.
    Mr. BECERRA. Yield back. And I thank the chairman.
    Chairman RYAN. Mr. Roskam is not here. Mr. Price not here.
    Mr. Smith.
    Mr. SMITH of Nebraska. Thank you, Mr. Chairman.
    And thank you to our panel here today for taking the time 
to articulate the benefits of trade.
    And, obviously, Secretary Vilsack, American agricultural 
trade is a tremendous story where we know that, as mentioned 
earlier, 96 percent of the world's population lives outside our 
country and they all need to eat, including ourselves. And so I 
see it as such a great opportunity to promote jobs here at 
home. And certainly the very compelling information on previous 
trade agreements in terms of increasing the exports from our 
country are just, I think, very convincing.
    Let's move forward just a bit beyond TPP to TTIP, the 
European Union. Obviously, I have concerns about biotechnology 
and its acceptance in the European Union. And we know that many 
of the regulations are biased against biotechnology and not 
based on science.
    Secretary Vilsack, could you share a bit--you touched on it 
a little bit earlier, perhaps, in the context of TPP. But in a 
broader context of further trade opportunities, could you 
elaborate on what TPA can help accomplish in that arena.
    Secretary VILSACK. Well, the opportunity for us to ensure 
that innovation continues in agriculture is somewhat related to 
the ability for us to make the case that biotechnology is safe, 
that it increases productivity. It reduces reliance on 
chemicals and pesticides and is better for the environment, in 
many cases, because of that.
    The European Union has an interesting take on this. Just 
today I received word from the Ag commissioner, Commissioner 
Hogan, that the European Union is about ready to essentially 
authorize the development and the acceptance of biotechnology, 
streamlining their process, but they are going to give each 
individual member state the right to opt out of the utilization 
of biotech for either cultivation or feed.
    I expressed concern about that. I expressed concern that it 
is going to make it a little bit more difficult to conclude 
these negotiations. So we are obviously in the beginning stages 
of that negotiation. We intend to be very strong on that issue. 
We intend to be very strong on the geographic indicator issue 
as well, which is equally important to American agriculture.
    Mr. SMITH of Nebraska. Very, very interesting, and I am 
glad you brought that up. And certainly we know that 
biotechnology helps us feed the world. And I don't think we can 
state firmly enough how important that is and what that brings 
about geopolitically. And I hope that we can continue in a very 
positive direction and even perhaps make further developments 
utilizing the innovation and creating jobs here at home.
    Thank you. I yield back.
    Chairman RYAN. Thank you.
    Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    And thank each of you for your service.
    Let's talk first about jobs, which the USDA Economic 
Research Service reported on last October, saying that, quote, 
``During the next decade, TPP would have no measurable impact 
on real GDP here on our economic growth.''
    The founder of the Peterson Institute upon whose studies 
the administration has so frequently relied about the effects 
of TPP said a couple of years earlier, quote, ``Congress always 
wants to know how many jobs they are going to create. As good 
economists, we take the view that a trade agreement does not 
create or destroy jobs. It alters the composition of the 
workforce.'' And Peter Petri, the author of the Peterson 
Institute study on TPP, agreed.
    I would ask you, Secretary Vilsack, do you agree with him 
that, while it may offer some of the other advantages you have 
discussed today, that TPP will not produce any significant net 
job growth in America?
    Secretary VILSACK. Congressman, it is our view that, for 
every billion dollars of agricultural sales that are increased, 
that 6,500 jobs are supported. I am convinced----
    Mr. DOGGETT. I would welcome getting the basis for that 
claim.
    So you disagree with these economists and you think there 
will be net job growth?
    Secretary VILSACK. Certainly, as a result of agriculture, I 
think we are going to see increased export opportunities. I 
think that is going to support----
    Mr. DOGGETT. And you disagree with your Economic Research 
Service that said there will be no measurable impact on real 
GDP here in the United States?
    Secretary VILSACK. You know, there are a few qualifications 
in connection with that study. That same group also indicated 
and supports the notion that every billion dollars of Ag sales 
supports 6,500 jobs.
    Mr. DOGGETT. I would welcome getting that information.
    Secretary Lew, even USTR has agreed that, with the 
authoritarian nature of the Vietnamese Government, we will 
never see enforcement of any of the labor standards unless we 
have what they call a consistency plan or an annex to provide 
for the implementation of those guarantees.
    Can you give us an outline of what such a consistency plan 
or annex will look like and how many years or decades it will 
be delayed before Vietnamese workers will be able to organize 
in independent unions?
    Secretary LEW. Well, Congressman Doggett, I can tell you 
that the fact that USTR is in a conversation, a negotiation, 
with Vietnam and a number of other countries----
    Mr. DOGGETT. They have been doing that 4 or 5 years, 
haven't they?
    Secretary LEW. On specifics, knowing that there has to be a 
plan for them to meet high labor standards if they are going to 
be part of TPP is something that wouldn't be happening if we 
weren't in a TPP negotiating context.
    Mr. DOGGETT. I guess what concerns me is you have been 
doing that 4 or 5 years and we have no specifics, but we are 
being asked to approve a process that really largely removes us 
from a role in this without knowing what it is Vietnam will be 
required to do.
    Secretary LEW. I actually don't think that that is what TPA 
does. TPA gives you an ongoing role as we go forward. There 
won't be a TPP if Congress doesn't approve it. And I am quite 
certain that one of the things you will be looking at is what 
they come back with in terms of a plan.
    Mr. DOGGETT. Do you have any specifics on what Vietnam 
would be required to do?
    Secretary LEW. I would have to defer to USTR on the 
specifics, obviously.
    Mr. DOGGETT. Well, they have been declining to give us any 
information about that.
    Mr. LEVIN. Mr. Doggett, would you yield for 10 seconds?
    Mr. DOGGETT. Yes, sir.
    Mr. LEVIN. I just say this respectfully. I don't see any 
place in TPA or any other place that says there has to be a 
plan. It is not there. And I know it has been said by some that 
they will not participate in TPP if there is no such plan. I 
don't think that there is any such requirement.
    Mr. DOGGETT. I don't believe there is either, and I think 
that is one of the several deficiencies in this. Of course, 
even when they had a plan and an annex on illegal logging and 
environmental protection with Peru, it hasn't gotten us any 
meaningful enforcement out of USTR. Indeed, as with the labor 
enforcement in the Americas, USTR's disinterest and lack of 
commitment has really been appalling.
    I want to address the arguments that each of you and some 
of our colleagues have made about, ``If we don't do it, China 
will.'' It seems to me, though I have some concern about having 
countries like Vietnam in this agreement, that, if that was 
really the gold of this, the administration's commitment 
wouldn't have been so spotty and selective.
    Excluding the Philippines, which is literally on the 
frontline with China today, excluding Korea, which asked to be 
in, excluding a number of the countries that Secretary Pritzker 
referred to that the Chinese have free trade agreements with, 
whether it is Laos or Thailand or Burma, Cambodia, Indonesia--
all of these countries are left out. So if that was the gold, 
it certainly seems to have been handled in a spotty and 
selective way.
    Since my time is expiring, I would just say that today's 
events and this week's events give new meaning to the term 
``fast track.'' We have a bill introduced last Thursday. It is 
being marked up today in the Senate. It will be here tomorrow. 
The question is whether this fast track runs over a few people 
on the way, leads to another train wreck, or it does, in fact, 
provide significant greater service and growth for our economy.
    Chairman RYAN. Thank you. The time for the gentleman has 
expired.
    Mr. Paulsen is recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    And I just want to start by thanking you for all being 
here. I mean, we have three of the President's cabinet 
Secretaries here. I mean, this is important.
    It is really important for us on a bipartisan basis, a 
bicameral basis, to make sure TPA gets across the finish line 
so we can get TTP and TTIP, Asia and these European deals done.
    Because it is so important to get these done to help create 
a healthier economy. And whether it is selling American 
products or services or exports or direct foreign investment, 
it all leads into more jobs and higher wages. There is no doubt 
about it.
    And, you know, here in America, we have a lot of 
intellectual property-intensive industries. I mean, it is part 
of our DNA. It is part of who we are. It is part of our 
headquartered operation. And so many jobs are a part of this. 
And I think it is key to our economy. Whether it is the life 
sciences area or med tech or biopharmaceuticals, strengthening 
protections for American innovation is absolutely critical.
    So maybe, Ms. Pritzker, if I can ask you a quick question. 
Ensuring 12 years, for example, of biological data protection 
in the Trans-Pacific Partnership, that will help foster more 
investment in and access to new lifesaving technologies and 
therapies.
    Will TPA help strengthen the hand of our U.S. negotiators 
who are working to achieve 12 years of data protection in this 
agreement?
    Secretary PRITZKER. I believe that TPA gives our 
negotiators greater leverage. You know, the challenge in 
addressing the issue with biologics is the fact that our TPP 
partners have a broad range of approaches to regulatory data 
protection for biologics. And so I think this does strengthen 
our hand because it demonstrates that this is a very high 
priority for our country.
    And, you know, if you step back and think about the United 
States economy--and the United States is shining in terms of 
innovation, whether it is biologics, whether it is in the 
digital economy.
    And these agreements--I mean, the TPA and, ultimately, the 
trade agreements that can be passed will allow us to protect 
our businesses, which today are vulnerable because we don't 
have these kinds of protections in place, protect them around 
the world. And that is extremely important.
    And we have to remember our economy is very open. I mean, 
you can access with an average tariff of 1.4 percent the United 
States market. But our access to markets in Asia is very 
limited. And if you do have access, you are vulnerable in terms 
of intellectual property protection.
    Mr. PAULSEN. You know, you mentioned digital trade and the 
digital economy. There has been a lot of talk about using the 
negotiations with the Europeans to encourage more transparency 
in that regulatory process, greater transatlantic cooperation 
in developing new standards, mutual recognition where 
appropriate, and an increased reliance on international 
standards where appropriate. And these steps would result in 
more predictability and lower compliance costs while not 
reducing our standards, which is really important.
    So, as a practical matter, how will you tackle these issues 
and these negotiations or how do you plan to achieve the new 
negotiating objectives on this issue within TPA itself?
    Secretary PRITZKER. Well, the digital economy, the fact 
that--look, we have to remember, if you are talking about the 
digital economy, as I said earlier, you know, in 2002, half the 
companies that were trying to create standards that would 
address their businesses didn't even exist.
    So it is very important, again, that what we do is, you 
know, facilitate e-commerce that we support and recognize the 
significance of the digital economy and the Internet as a 
platform for international trade.
    So all of these requirements in TPA create a floor, if you 
will, for the negotiation. As Secretary Lew said, by putting 
out the 150 objectives, that creates a floor that becomes 
very--that is transparent, frankly, to the other countries that 
are participating in the negotiation, whether it is in 
intellectual property protection, the digital economy, labor, 
environment, et cetera.
    And so it is, I think, extremely important and valuable 
from a negotiator's standpoint that they know that the 
administration and Congress stand side by side on the floor 
that is created by TPA.
    Mr. PAULSEN. Thank you, Madam Secretary.
    I yield back, Mr. Chairman.
    Chairman RYAN. Mr. Thompson is recognized.
    Mr. THOMPSON. Thank you, Mr. Chairman.
    Secretaries, thank you all for being here.
    I believe that, if we increase our exports and we eliminate 
trade barriers, it can be a huge win for our country and 
certainly a huge win for my district and I think probably every 
other district in the country. But it has to be done in a way 
that creates a level playing field, and it has to be done based 
on a set of standard rules, basic rules, where everybody is 
playing by the same set of rules.
    I also think that, if we do trade, it has got to create 
good jobs here in the United States. It has got to grow our 
U.S. economy. We have got to set standards for our trading 
partners to live up to. We need to improve market access. And 
we need to do all of this making sure that we have an eye 
clearly on our environment. And I am just not sure that this 
TPA gets us to where we need to be.
    It is my understanding that all of the language pertaining 
to climate change has been taken out of the bill. Is that 
correct, Secretary Lew?
    Secretary LEW. I would actually ask the chairman if he 
might respond. It is not an area of the TPA that I am familiar 
with. But the----
    Mr. THOMPSON. Do any of you know that?
    Secretary PRITZKER. TPA includes--in terms of the 
environment, it codifies and requires that all seven of the 
multilateral environmental agreements are included. And then, 
also, for the first time, it----
    Mr. THOMPSON. But climate change is not one of them. 
Correct?
    Secretary PRITZER [continuing]. Settlement. I would ask the 
chairman.
    Mr. THOMPSON. I think it is amazing, given the incredible 
importance to this issue--and it is not something that I just 
believe to be true. Every agency in our Government, the 
intelligence community, every branch of the military, is 
cognizant of this and working on it. And, yet, it has been not 
left out. It was--as I understand, it was taken out.
    Secretary LEW. Congressman, my understanding is that there 
are a number of provisions that deal with the environmental 
standards in a way that address the substance of climate 
change. I just don't know if the words ``climate change'' are 
used. That is why--but the standard----
    Mr. THOMPSON. I think the absence of it leaves me----
    Secretary LEW. The standards of environmental rules are 
there.
    Mr. THOMPSON [continuing]. Leaves me concerned.
    Secretary Lew, you had mentioned in your oral testimony 
today that--you said nothing can change a U.S. law without 
congressional approval. One of the things that I am hearing a 
lot of concern about, especially from my home State, is that it 
could, in fact, change California law--California regulation.
    We are pretty progressive in regard to our environmental 
work, our health and safety standards, and a lot of folks are 
worried that this trade agreement can, in fact, remove a lot of 
the things that we have done in regard to clean air, clean 
water, et cetera.
    Do you have any understanding of that?
    Secretary LEW. Well, certainly the issues of Federal law, I 
know, are addressed. And, obviously, there are many areas where 
Federal law preempts state law. So that covers an awful lot of 
territory.
    I would be happy to get back to you on the specific issues 
and check with the experts on the California law issues.
    Mr. THOMPSON. I would appreciate hearing back on that.
    Secretary Pritzker, you said that it is good for American 
workers.
    Is it just coincidental that every American worker in my 
district that has talked to me about this is solidly against 
it?
    Secretary PRITZKER. I think that I fundamentally believe 
that the economic growth in Asia is something that, if our 
companies are not taking part in, our workers are going to 
suffer.
    And, for example, I met with a company called Electric 
Mirror. Electric Mirror makes electrified mirrors. They follow 
their customer around the world, which happens to be the 
hospitality industry.
    They want to sell their goods and service, their products, 
into Vietnam and into Malaysia, but they face a 30-percent 
tariff. Their customers have said, ``Please move your 
manufacturing to China because there is no tariff between China 
and Vietnam and Malaysia.'' They said to me--the CEO said to 
me, ``I don't want to move my manufacturing. I like 
manufacturing here.''
    I believe it is good for American workers. And I think that 
we have to recognize that, as Secretary Vilsack said, the world 
is not standing still, businesses are not standing still, they 
will follow their customers, and that by doing nothing doesn't 
mean that our workers are protected.
    Chairman RYAN. Gentleman's time has expired.
    Mrs. Black.
    Mrs. BLACK. Thank you, Mr. Chairman.
    And once again I want to thank all of you for being here 
today. It has been a good conversation.
    I want to go to the data issue. One of the most important 
21st-century issues is protecting the cross-border data flows, 
which are vital not just in the service industries, but also 
globalized countries in any sector.
    So the 2015 TPA includes new provisions that encourage a 
free flow of data around the world and directing the 
administration to achieve meaningful outcomes in trade 
negotiations.
    Firms with global sales forces must be able to transfer 
this data back to their headquarters, and many of the companies 
across sectors that centralize the processing of their data 
must be able to do so seamlessly.
    In both the EU and the United States, there is data for 
privacy there that is pretty robust and is protected, but we 
have different systems for providing that protection.
    So respecting these differences of those data privacy 
approaches, how can we ensure that robust data protection is 
there for cross-border data flows?
    Secretary Pritzker, would you like to address that.
    Secretary PRITZKER. Well, I mean, TPA is very clear about 
this. It recognizes the significance of the Internet, as you 
have said, as a trading platform, and it sets forth modernized 
objectives to facilitate e-commerce and to promote an open 
Internet.
    And, importantly, the bill directs negotiators very clearly 
to ensure that governments refrain from impeding digital trade 
in goods and services to restrict--you know, refrain from 
restricting cross-border data flows and refrain from requiring 
local storage or processing of data.
    Those are objectives that are laid out in the 2015 TPA 
bill. These were not part of previous trade promotion 
legislation.
    Mrs. BLACK. I appreciate that.
    And I want to hear that we can be confident that that data 
is going to be protected. Obviously, we are dealing with all 
kinds of breaches of data in our country right now from foreign 
nations as well as domestically, and that is a really big 
concern. I want to be sure that we are protecting that.
    Secretary PRITZKER. Your fear about cybersecurity and 
someone stealing data?
    Mrs. BLACK. Yes.
    Secretary PRITZKER. So, you know, I mean, the 
responsibility for that lies with a business and--but if--you 
know, that is an asset of a business. And if data is stolen, 
that is--you know, there are consequences for that.
    What we have done--I mean, what TPA does is improve the 
likelihood that e-commerce can actually exist in these 
countries today.
    Mrs. BLACK. Do any of the other Secretaries want to address 
the data flow? Is that something--Secretary Vilsack or 
Secretary Lew?
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman RYAN. Mr. Larson.
    Mr. LARSON. Thank you, Mr. Chairman.
    And I want to thank our Secretaries, as well, for their 
service to the country and, also, the extended welcome that 
they received from our colleagues on the other side of the 
aisle today and embracing what I think people generally 
understand, the need for trade. I think the President has 
articulated the country's position extraordinary well. And it 
is clear that the United States has got to be a player on this 
stage.
    I want to associate myself with the remarks of our ranking 
member, Sandy Levin, and also with a great sage, Charlie 
Rangel. And in a comment--and then I will yield my time to my 
good friend from Massachusetts, who, along with me, will be 
introducing an amendment tomorrow.
    Mr. Levin is right about the principles. There is no doubt 
that this administration will work harder and has the 
confidence both of our Republican colleagues and certainly of 
the people on this side of the aisle to do the best possible 
job for the American people.
    But our Chairman Ryan, at the beginning of this, raised a 
statement about China, and I think he is right: that if we are 
not on the field, then China will be; and that the entire world 
is looking at us. He is right about that, too. The entire 
world, not just the Business Roundtable, not just the Chamber 
of Commerce, not just Wall Street, not just the captains of 
industry, but the citizens of this country and the citizens of 
all the nations we seek to do trade with.
    And so there is a great deal of confidence that our 
President and this administration will do the best possible 
job. But Mr. Rangel is absolutely right in saying that this 
alongside of an infrastructure agreement that has not yet come 
forward in this Congress and, therefore, does not give the 
American people the confidence in trade deals that happen that 
are sophisticated and way beyond their understanding, that it 
complicates this issue in a way that I think we need to address 
as a Congress and as a committee. And it is--we were creating 
jobs, building roads and bridges.
    China has 1.4 billion in population. In less than a decade, 
they raised over 320 million, approximately the population of 
the entire United States, not because of trade but because of 
infrastructure and the creation of jobs, even jobs where people 
aren't credentialed. And so that has to remain our focus, as 
well as this issue of currency.
    And I yield to my good friend from Massachusetts.
    Mr. NEAL. Thanks, Mr. Larson.
    Nick Brady, O'Neill, Bentsen, Rubin, and Snow--they have 
all talked about currency manipulation. And we all know in the 
backdrop that there are geopolitical considerations as it 
relates to currency manipulation. There is a rhythm to the 
enthusiasm that we have had from time to time about confronting 
the Chinese and the Japanese and others over currency 
manipulation.
    In the conversations that we have had--I just want to play 
off of what John said a moment ago. I suggested to the 
President a month ago at the White House, when we were talking 
about this, that we really should have linked this to a big 
infrastructure bill so that there would have been something 
there for all, in terms of a pro-growth economic plan.
    But, Jack--I am going to call him ``Jack'' because he is a 
friend--Jack, these conversations we have had, they relate to 
challenges and retaliation that might come over the issue of 
QE2 and quantitative easing. And you have suggested it would 
open up the opportunity for competitors to challenge us on the 
basis of currency manipulation, just as we would be doing the 
same.
    Would you, perhaps, for our enlightenment, talk a little 
bit about that?
    Secretary LEW. Congressman, I think that the question of us 
being able to unilaterally write an international standard is 
not one that--that is not how international agreements are 
made. We wouldn't write a standard where QE2 could be judged to 
be currency manipulation. But if you get into a negotiation 
internationally, which I think would be hard to even get into 
about a binding, enforceable constraint, there are other 
countries in the world who would insist on having it apply to 
all countries.
    We don't intervene; we don't buy and sell foreign currency 
because we are the world's global reserve currency. Other 
countries have to buy and sell dollars all the time just to 
manage their economies. They are worried that the normal 
management of their economies, macroeconomic policy that is 
perfectly legitimate, could be represented as being something 
that it is not.
    So I have no sympathy for countries that are doing the 
wrong thing, and we should go at them very hard. But I do 
understand why countries are worried that a process that goes 
to a trade remedy could mix the two up. And I don't think we 
can rest assured that an international standard would not be 
expanded to include the kind of monetary policy that the United 
States has. We would find that unacceptable; we would not agree 
to that. But I am just trying to give you insight into why I 
understand their position on this.
    But, you know, we are not saying, don't give us tools. 
There are amendments being offered in the Senate that we are 
sympathetic to, we are supportive of, that would give us tough 
tools. We would work with Congress to get tough tools. I am 
just trying to be clear about which ones we think help and 
which ones hurt.
    Chairman RYAN. Thank you.
    Time for the gentleman has expired.
    Mr. Young.
    Mr. YOUNG. Thank you, Mr. Chairman.
    And I thank all our witnesses here today for your service 
and for your stamina throughout this hearing.
    The 2015 TPA renewal dramatically updates and expands the 
number of negotiating objectives, to include nearly 150 
specific new objectives from the 2002 TPA version. TPA requires 
that the administration seek to achieve these objectives in our 
trade negotiations, ensuring advancement of important economic 
sectors--important sectors, for example, like agricultural, 
which is essential to the State of Indiana, or manufacturing, 
also very important to my home State of Indiana.
    In the Hoosier State, these two sectors are, of course, 
vital to workers, to ensuring that wages rise, to their 
families and so forth, and they account for nearly $40 billion 
in foreign sales annually. But thanks to the work of our 
chairman and this committee, this 2015 TPA importantly 
addresses new 21st-century trade-related negotiating 
objectives, like cross-border data flows, state-owned 
enterprises, regulatory practices, global value chains, and all 
these things that were perhaps a lesser priority just a decade-
plus ago.
    It also includes, for the first time, a principal 
negotiating objective, which has been talked about at some 
length here today, on currency.
    Secretary Pritzker, what is the administration's reaction 
to this expansion of negotiating objectives during these 
negotiations?
    Secretary PRITZKER. I think the expansion is good. As we 
have said here, it lays out what is important to the United 
States. It lays out what our values are, it lays out what we 
think is fair, it lays out what our priorities are.
    And I think that we have to recognize, as you talk about 
the digital economy or the new economy, our economy is 
changing. The United States, one-third of our growth has come 
from innovation. And we need protections for those cutting-
edge, growing markets that are creating jobs in the United 
States. We need intellectual property protection. We need free 
flow of data. We need these things because we dominate in many 
of these industries. And we are a creative society that has 
been successful at that.
    And so it is extremely important that we recognize that 
there are new needs and new areas that require attention in 
trade agreements. So we welcome the idea of the administration 
and Congress standing side-by-side and declaring, ``Here is 
what is important to us.'' It will help our negotiators.
    Mr. YOUNG. Secretary Vilsack, as Secretary of Agricultural, 
maybe you could offer that perspective, about the expansion of 
negotiating objectives, and your thoughts related to that.
    Secretary VILSACK. Well, Congressman, I am very pleased 
with the fact that the objectives include a direction to the 
negotiators to make sure that SPS rules are enforceable. We run 
into this a lot, with countries basically creating barriers 
that are artificial and not science-based. And the fact that 
there is a strong indication of the need to have enforceable 
SPS, I think, will help us reduce those barriers, reduce the 
friction in trade, and increase agricultural trade.
    I am also pleased with the fact that there is included a 
directive as it relates to geographic indicators. You come from 
a State that does quite a bit of dairy. This is something of 
very significant interest to the dairy industry. And I think it 
will help us in terms of negotiating with our friends in the EU 
about why their approach to GIs is not the approach that is 
supported in this country.
    Mr. YOUNG. Secretary Lew, anything to add? I will allow you 
to close, sir.
    Secretary LEW. Well, I would just say that, you know, I 
have conversations on currency issues with countries all the 
time. The fact that Congress puts a priority in TPA that says 
it is a principal objective makes it clear that I am not just 
speaking for myself or for the President but speaking for our 
whole country, and that does strengthen our ability to press 
hard.
    And, you know, I would point out, on currency, that we do a 
report twice a year, and if a country is named to be a currency 
manipulator, what you do is you go into a detailed consultation 
to drive the policy to change. That is the kind of thing we can 
talk about in terms of what we would do with countries in a 
trade agreement. I think it opens the door to have those kinds 
of conversations.
    So the fact that we have real reservations and think that 
some of the language is damaging, the fact that Congress has 
spoken to this issue strengthens our hand to get more done.
    Mr. YOUNG. I would agree.
    And I yield back. Thank you so much.
    Chairman RYAN. Thank you.
    Mr. Blumenauer, are you here?
    Mr. BLUMENAUER. I think so.
    Chairman RYAN. The gentleman is recognized.
    Mr. BLUMENAUER. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    I think sometimes we lose track of the fact that we are 
part of a two-step process here, that trade promotion authority 
is to establish these guidelines, these objectives that we help 
tell the administration what we want the administration to do.
    I am pleased that we are here, finally, with a bill. I am 
sorry that it took this long. I think, had it been done 
earlier, some of the questions and concerns could have been 
hopefully resolved or at least clarified.
    I do agree wholeheartedly with my friend Mr. McDermott, who 
had a litany of horrors about NAFTA. I came shortly after NAFTA 
was approved. I heard why it was bad from critics, and I 
concluded they are correct. It wasn't a good agreement. It 
wasn't comprehensive, and many of the things that people care 
about where I come from in terms of labor and environment 
weren't embodied in the text; it was kind of a sidebar.
    We have come a long way. And I want to express my 
appreciation for my colleague and my constituent, Ron Wyden, 
who has worked really hard to try and drive into this proposal 
many of what I think are values not just of Democrats but what 
we hear of people around the country who are concerned and 
skeptical and want to make sure it works for America.
    And I think the transparency, I think having these 
objectives spelled out--they may not be everything that 
everybody wants, and, while I am comfortable with the overall 
outline and, knowing what I know now, will probably vote for 
it, but I want us to continue to see if there are things we can 
do to strengthen it and build consensus and move it forward. I 
am looking forward to the give-and-take going forward.
    I have offered up a half-dozen proposals that I think build 
that consensus--things like establishing an enforcement trust 
fund that comes from some of the money that the cheaters pay us 
and dedicate it to have the resources to make sure the 
agreements are enforced. That is one of the biggest complaints 
I hear, and it is a reasonable complaint. It shouldn't have 
taken 6 years for Guatemala to get to this point and have to be 
briefed by the AFL-CIO. But the USTR, Commerce don't have the 
resources to be able to do all that they could.
    And I hope that this committee, either in TPA or a package 
of things that comes forward, includes something of this 
nature. The Green 301--there are elements that are out there 
that have bipartisan support that could be folded into a 
package. Many of us have cosponsored some of these things, and 
I hope they will be considered.
    And I hope the administration will consider things that I 
have shared with Ambassador Froman, who has indicated amazing 
patience. I appreciate it. But I think there is more that we 
can do. And I would appreciate folks working to meet us halfway 
or maybe go a little further.
    But, at the end of the day, we will have a trade promotion 
authority or not. I think the odds are we probably will. And, 
regardless of what people have said here--and there are areas 
that they disagree and think that it might be--but I think 
there is no question that we are better off with that than 
without one.
    And it certainly doesn't resemble what we had in 2002. I 
voted against the one in 2002. And if we had not enacted these 
improvements, I would not be supportive. But this is part of a 
change that is taking place.
    I hope that people dive in and look at some of the parade 
of horribles that have been given to us and actually look at 
the cases and look at what has happened. As I do that, I find 
that there is a broader picture, and I think people won't be 
quite so alarmed. We have never lost, for example, an investor-
state dispute. And some of the things that are tossed up as 
horrible examples actually give people pause.
    But the question at the end of this process for me is going 
to be whether we have done all we can to strengthen this 
process to get the best deal possible. And then, are we going 
to be better off with no deal at all? Are things going be to 
better in Vietnam in the absence of any agreement? And those 
are the sorts of things that I think we need to take a step 
back, listen to the critics. I think many people have.
    I appreciate the administration's work. I hope you will 
help us move a little further, both in terms of the refinement, 
the enforcement, and how we can work together to make sure that 
currency, that we deal with enforcement, that these things are 
items that we come together to do a better job. Because the 
critics in my community have an important point, and I want to 
work with them and with you to make sure they are satisfied.
    Thank you for your courtesy, Mr. Chairman.
    Chairman RYAN. Thank you.
    Mr. Kelly.
    Mr. KELLY. Thank you, Chairman.
    And thank you all for being here.
    I know that sometimes when we have these get-togethers, it 
is kind of contentious, but I just think this is really what 
the country looks for, is that we have people on both sides of 
the aisle coming together to recognize opportunity.
    And I am going to ask each of you to answer this and very 
quickly. So if we don't do TPA, if we aren't able to put 
together TPP, if we are not able to put together TTIP, and if 
we truly think the road back to prosperity is through growing 
it, our global share, our share of the global economy--and I am 
from the automobile business. I watched General Motors lose 
market. And they lost it, and they will never, ever get it 
back.
    And my question, then--Ms. Pritzker, you came from the 
private sector. Once you lose that market, the chances of 
getting it back are very slim. And I don't think the rest of 
the world is going to sit back idly and say, ``You know what? I 
think we will keep waiting for the United States to jump on 
board.''
    So I would just, if each of you just could very briefly--
there is really no alternative to this. And I want to make sure 
that our people back home understand--and there is a lot of 
debunking to be done with this, as you know, for various 
reasons. But we have to let people know there is a tremendous 
amount of transparency, there is a tremendous amount of 
accountability. And, at the end of the day, Congress has the 
oversight on it and can reject it if it doesn't come within the 
structure of the way we have said it should go forward.
    So if each of you could weigh--Ms. Pritzker, you come from 
the private sector. I have to tell you, there is nothing more 
important--if we want to get the labor force participation rate 
back to where it needs to be, and then we have to grow jobs. 
And the only way we grow jobs is by growing market share. There 
is just no other way to do it.
    Secretary PRITZKER. I will make two very quick points.
    First is market access in the United States is very easy. 
The status quo for our companies is not working. Market access 
outside the United States is very difficult, and the trade 
agreements can change that. And that will be good for American 
business, but it will also be good for the American worker.
    Secretary LEW. Congressman, I would just give you two 
statistics to answer the question. More than 95 percent of the 
world's consumers live outside of the United States. And, by 
2030, there will be 3.2 billion middle-class consumers in Asia. 
That is a market we need to be part of.
    Secretary VILSACK. Congressman, there are 250 bilateral, 
multilateral trade agreements, and the U.S. is party to 14 of 
them. And I just want to indicate that, if we don't participate 
in this effort, I guarantee you that our competitors will.
    Mr. KELLY. Okay. And I appreciate that.
    I know the chairman has worked very hard with the Senate to 
come up with something that makes sense. I would just say that, 
for all of us sitting here today, if we are really going to 
succeed, if we are going to get people back to work, if we are 
going to have true growth policies, there is no way we can do 
it without going after these markets. Our market share has got 
to get back to where we actually dominate the global market, 
not just participate.
    I think in your testimony, Ms. Pritzker, you say you just 
don't want to survive, you want to thrive. And that is the type 
of attitude America has always had.
    So for all of you to be here today--and you have endured a 
long time sitting here to answer our questions, but I really 
think that the biggest problem we are facing is educating now 
people back home, both back home and right here in this body, 
about the dangers of us not being able to pass TPA and not 
being able to participate and be at the table. I have always 
thought if you are not at the table you are on the menu. And I 
think the one thing we don't want to do is put ourselves in a 
bad position.
    So, Chairman, I thank you so much for your work on this.
    I thank you all for what you are doing.
    I think it is kind of odd that we are sitting here today, 
and so--the President comes under a lot of fire from our party. 
His Cabinet is here. And we are agreeing with you that we have 
to find a way to grow jobs, to grow our economy, to get our 
people back to work. And I think that is what the American 
people expect. That is the very least we can do. So thank you 
so much for your participation today.
    Mr. Chairman, I yield back.
    Chairman RYAN. Thank you.
    Mr. Kind.
    Mr. KIND. Thank you, Mr. Chairman.
    I want to thank our witnesses for your patience and 
courtesy, being with us today.
    But, Mr. Chairman, thank you for scheduling this. These are 
important initiatives. And, like Mr. Blumenauer, I wish we had 
been addressing this a lot earlier on, but, now that we are 
here, hopefully we can continue to build bipartisan consensus 
and support for a robust trade agenda.
    Mr. Chairman, just a quick note of caution: We are going to 
have to find a better offset to pay for TAA. And I think you 
have probably heard some feedback on it already. Senator Warner 
was offering an amendment today. We are working on some more 
acceptable offset for TAA, rather than taking cuts out of 
Medicare in order to pay for it. So we will look forward to 
working with you to find if we can get a reasonable solution to 
that.
    And, Mr. Chairman, you probably have these stats in front 
of you, too, but I have been doing my fact-checking as far as 
my home State of Wisconsin. Eighty-seven hundred companies in 
Wisconsin are exporting to other countries today, supporting 
785,000 jobs, almost 1 out of every 5 in the State. Eighty-
seven percent of those companies are small to medium-size 
businesses. During the past 6 years, exports have increased 
over 84 percent in Wisconsin. We are number two in the Nation 
with dairy exports, are in the top five in 10 industrial 
sectors.
    So trade is important for good-paying jobs back home. And 
we are doing it. We are already trading with many, many 
countries. So it is not a question of if we are going to trade; 
it is what the rules of trade are going to look like going 
forward. And that is what this discussion is all about. And 
that is why the TPP negotiations are so important, one of the 
fastest growing regions of the country.
    And, Secretary Pritzker, I think you cited the fact that we 
are looking at almost a 2-billion-person increase in the market 
in the Asian-Pacific Rim right now. We have to be in that tent. 
We have to be in there competing and doing the best job to be 
at the table, to elevate these standards and rules in order to 
level the playing field for our businesses, our farmers, for 
our workers so they can effectively compete in the 21st-century 
global economy.
    But we also know, Secretary Vilsack, we are not there yet 
in these TPP negotiations. You and I have had discussions about 
the importance of greater market access in Japan, Canada, 
autos, but especially agricultural and especially dairy. And so 
we look forward to working with you and the administration in 
order to get to ``yes'' on those very important issues.
    And I also want to commend Ambassador Froman and his USTR 
team. They have been Johnny-on-the-spot, their level of 
engagement, as the entire administration and each of you 
Secretaries have been in engaging us Members of Congress so we 
do have input, so we can walk through texts, so we can ask 
questions and provide our feedback in the course of these 
negotiations. And that is how it is meant to work. And I 
encourage more of my colleagues to be that active and engaged 
so that there are no surprises at the end of this journey, so 
that there is strong support in Congress to finally get these 
agreements passed to get us back in the game.
    Let me ask each of you for a quick yes-or-no answer to this 
question. Do you think it is important for this President to 
get trade promotion authority in order for us to get back from 
our negotiating partners their last best offer?
    Secretary Lew.
    Secretary LEW. Yes.
    Secretary PRITZKER. Yes.
    Secretary VILSACK. Absolutely.
    Mr. KIND. Well, we have also had a discussion today and Mr. 
Neal raised the importance about currency manipulation. And we 
knew for a very long time that there has been bipartisan 
concern. I share many of the same concerns my colleagues have 
been raising in regards to how we best address other nations 
that are manipulating their currency for export purposes.
    Today, Senator Bennet had offered an amendment and a 
discussion on that. Secretary Lew, I am wondering if you had an 
opportunity to take a look at that and the pros and cons that 
he was discussing.
    Secretary LEW. Congressman, I have. I think that it has a 
lot of features to it that are--I think can add a lot of 
attention. And it seems to be something that we would be 
supportive of.
    It has very objective standards. It is a question of 
whether there is a significant bilateral trade surplus with the 
United States, material current account surplus, and a 
persistent one-sided intervention, things that are measurable.
    It has remedies that are very concrete. It doesn't get into 
the very difficult and, I think, almost impossible task of 
coming up with a precise point estimate of valuing the kind of 
interventions that we want to offset.
    And they are the kinds of remedies that I think countries 
will care about: being blocked from access to U.S. Government 
contracting, being barred from financing through OPIC or Ex-Im. 
And I believe there are some other ideas, as well.
    So it is something I think is very much----
    Mr. KIND. Well, we look forward to working with you, 
engaging, as you have been willing to do with us.
    And, Mr. Chairman, as we work on the currency issue in 
particular, it is important.
    Secretary Pritzker, I really appreciated the story you just 
told us because I just had a similar story told in my office 
from an auto part manufacturer from my home State who was in my 
office recently talking about the importance of these trade 
agreements. And, unfortunately, he said he had to move one of 
his lines recently to Mexico. And I asked him, ``Was it because 
of labor? Was it because of the environment?'' And he said, no, 
it is because of the fact that Mexico has 46 bilateral trade 
agreements that have low tariff barriers to the goods and 
products being made there. So he had to move his line there in 
order to get access to these other countries because we don't 
have trade agreements with those other nations.
    So that is another aspect of trade that gets lost in this 
discussion, that, because of the lack of these agreements, we 
are forcing countries to have to play in someone else's 
backyard and creating jobs there, as opposed to Wisconsin or 
throughout our Nation. So that is another important point that 
I appreciate you raising today.
    Thank you, Mr. Chairman.
    Chairman RYAN. Thank you.
    Mrs. Noem.
    Mrs. NOEM. Thank you, Mr. Chairman.
    It is interesting; for my producers in South Dakota that 
are involved in agriculture, we sell 11\1/2\ times more goods 
to countries where we have trade agreements than to those 
countries that we don't have trade agreements. So it certainly 
has been good for our economy whenever we can finalize these 
kinds of negotiations because agriculture is our number-one 
industry in our State.
    Secretary Vilsack, I wanted to talk to you a little bit 
about something I hear a lot. And American farmers and ranchers 
are extremely frustrated with China's unjustified barriers that 
they put up for our Ag products. Many times, they ignore 
international standards. They also have no basis in science.
    And I am curious what kind of USTR activities have been 
taking place that would help finalize and rectify some of what 
China's actions have been. For example, the World Organization 
for Animal Health recognized last year that all cuts of beef, 
no matter what their age were, were healthy for individuals, 
yet China still continues to ban our beef products. Those kinds 
of things happen. Also, they have banned the veterinary drug 
ractopamine, which ignores international standards, as well.
    So I think you are very familiar with the subject, and I 
was wondering if you could speak to what USTR is doing to 
ensure that these regulations and that their products comply 
with their WTO obligations and then, also, that they are based 
on science and they are based on international standards that 
we currently have.
    Secretary VILSACK. I would say a couple things, 
Congresswoman.
    I would say, number one, USTR is working its way through a 
series of cases in the WTO involving China, most recently a 
case which was brought on subsidies and the subsidization of 
various aspects of the Chinese economy, including aspects of 
agriculture. So they are working their way through the process, 
bringing cases, and have been quite successful in the cases 
they have brought.
    Secondly, they have worked with us, as did Secretary 
Pritzker, during the recent JCCT to structure a strategic 
dialogue with the Chinese that will allow us to get down to the 
very specific technical issues that you just raised, to try to 
impress upon the Chinese that they are disrupting not just the 
relationship between our producers and their consumers but 
disrupting the relationship between producers around the world 
and consumers around the world. And I think, if we can have 
that strategic dialogue, that more in-depth dialogue, maybe we 
can break down some of these barriers.
    The last thing I would say: This TPP agreement and the TPA 
agreement, structuring science-based sanitary and phytosanitary 
rules, creating a sanction and a method for enforcement, will 
allow us to put greater pressure----
    Mrs. NOEM. On China.
    Secretary VILSACK [continuing]. On the Chinese over time.
    Mrs. NOEM. I agree with that, as well. So I appreciate that 
that is a part of these negotiations that are ongoing within 
TPP because I think it will direct our activities even in the 
region and with other countries and especially with China as we 
go forward.
    So, with that, I will yield back my time. Thank you, Mr. 
Chairman.
    Chairman RYAN. Thank you.
    Mr. Pascrell.
    Mr. PASCRELL. Thanks, Mr. Chairman.
    Good to see you today.
    This is not a question of trade agreements versus no trade 
agreements. As much as the proponents of this piece of 
legislation would like that to be the question, it is not.
    Madam Secretary, Secretary Pritzker, you said we need 
market access for American companies. I start at a different 
point. I want market access to American working families. That 
is what I want. And when you start at your position and you 
start at my position, you have a different perspective of 
looking at these things.
    So, before I make some comments, if I have time, I would 
like to ask you some questions, if I may, through the chair.
    There are no standards in TPA to ensure food imports from 
countries are safe. There aren't any.
    I would like to add--I am going to talk about an amendment 
tomorrow which will provide a guideline that all food imports 
meet U.S. safety standards to be eligible for fast track. Do 
you agree with that?
    Secretary PRITZKER. Well, Congressman, I am not an expert 
on food safety, and so, for that, I will yield to Secretary 
Vilsack. But I would just like to make one comment----
    Mr. PASCRELL. You don't have a comment on food safety? You 
don't have to be an expert to have a comment on food safety.
    Secretary PRITZKER. Well, let me begin with a fundamental 
comment.
    American families are what I get up in the morning and go 
to work for, and helping businesses grow so that they can 
create jobs. Because the private sector, ultimately, is what 
creates jobs----
    Mr. PASCRELL. Madam Secretary, we don't have all day, but--
--
    Secretary PRITZKER. I understand, but I just----
    Mr. PASCRELL [continuing]. Would you please talk to the 
question? Thank you.
    Secretary PRITZKER. You know, food safety--we have 
equivalency requirements as it relates to food safety. But I 
defer to Secretary Vilsack in terms of the specifics.
    Mr. PASCRELL. Mr. Secretary.
    Secretary VILSACK. Congressman, nothing gets imported into 
this country unless we have certified that the process that was 
used to produce that product is equal to or better than the 
process we use in the U.S.
    Mr. PASCRELL. Well, I have been at the border at McAllen, 
and I see the produce coming over the border, and I would like 
to differ.
    I have a second question for you, Madam Secretary. The 
United States does not have a VAT, a value-added tax. Foreign 
manufacturers selling in the United States do not pay United 
States income or payroll taxes, as you well know. They also do 
not pay their own consumption or VAT taxes because the VAT is 
rebated by their government on exports--very, very tilting the 
whole table, if you will.
    So we need to change the WTO rules that allow this unfair 
tax burden on American producers and service providers. In the 
past, I have introduced legislation, bipartisan, that would 
help end this disadvantage to American companies. We are being 
penalized.
    My understanding is that this negotiating objective on 
border taxes has been included in every TPA bill since the 
first one introduced over 40 years ago, but has any United 
States trade agreement ever achieved this objective?
    Secretary PRITZKER. You know, we are working with the WTO 
to address the distortions that are caused by the VAT. And that 
is the state of play that I am aware of at this time.
    Mr. PASCRELL. Do you know how many questions were asked 
today, and we are working on it, and we are working on it, and 
some we are working on for 5 months, and some we are working on 
for 5 years, and some we are working on for 10 years.
    Here is the problem. The fast-track bill being introduced 
would revive the same old failed process that led to disastrous 
trade agreements in the 1990s and the early 2000s. I voted 
against fast track then. I must vote against it again now 
because it unnecessarily cedes congressional constitutional 
authority to negotiate trade agreements.
    Most of the past trade deals haven't been good for American 
workers. I will take one city I have grown up in and I have 
lived there all my life: Paterson, New Jersey. It is a prime 
example of how trade has devastated the American textile 
industry.
    Paterson was the country's first planned industrial city, 
created at the urging of Alexander Hamilton in 1792. Hamilton, 
our first Secretary of Treasury--we have had a slew of good 
ones--believed that the United States needed to develop its own 
industries and reduce its dependence on foreign goods. We were 
at one time called the Silk City, you know, the Silk Road. But, 
following NAFTA and the other free trade agreements, factories 
began relocating overseas.
    When you start to talk about--and I will conclude here, Mr. 
Chairman.
    When you start to talk about jobs--or when we start to talk 
about jobs, you go silent. We hear about what you might do, 
what perhaps could happen. But you can't answer the question 
about how this particular agreement that you want us to vote 
for will produce at least, within range--no one can predict 
exactly--what they could produce for the American jobs or how 
it will help stagnant wages.
    Chairman RYAN. The gentleman----
    Mr. PASCRELL. Yes.
    Chairman RYAN. I let the gentleman go over a minute.
    Mr. PASCRELL. Thank you.
    Chairman RYAN. I thought you were winding, but you are 
winding back up, so----
    Mr. PASCRELL. I appreciate it.
    Chairman RYAN [continuing]. Time of the gentleman has 
expired.
    Mr. PASCRELL. I was winding down, Mr. Chairman, but thank 
you.
    Chairman RYAN. Okay.
    Mr. Reed.
    Mr. REED. Thank you very much, Mr. Chairman.
    Thank you to our panel for staying as long as you have.
    And, Madam Secretary, it is a pleasure to see you again, as 
we have worked previously on some manufacturing initiatives. 
And I have appreciated our relationship, and I thank you for 
that relationship and that spirit of working together in 
regards to U.S. manufacturing in particular.
    As I listen to colleagues, as I listen to some of the 
testimony, one of the things as we are discussing trade 
promotion authority today that I just want to clearly put out 
on the record to the American people back home who are tuning 
into this--and most American people, as I will tell you going 
around the town halls and things in the district, listening to 
people, you know, you hear the acronyms--TPA, TPP, TTIP, fast 
track--they don't know what that is. I will be perfectly honest 
with you.
    So the question I put to you is, as we talk about trade 
promotion authority--and I get a sense from the folks that are 
opposed to this, my good friends on the other side of the 
aisle, that they envision some type of negotiation where 535 
Members of Congress are sitting in the room with 
representatives of countries and trying to negotiate the best 
deal for American workers and for American people.
    I also get a sense that they want to have Congress weigh in 
on an open amendment process that every single provision of any 
agreement is subject to amendment. Now, I am just a country 
lawyer from western New York, a small business guy before I 
came here. And I can tell you, in negotiations that I had, if I 
was on the other side of that table, with 535 individual 
Members who have authority or power to negotiate or amend 
certain individual words and lines of an agreement such as a 
trade agreement that is going to open markets for our American 
workers, in my opinion, do you think we would get the best 
trade agreement for the American worker possible in that 
environment?
    Does anyone want to take--Madam Secretary, would you take a 
swing at that?
    Secretary PRITZKER. No. I think it is very--look, it is 
very difficult to negotiate a deal between two parties. The 
idea that we are negotiating with 12 countries is really 
extraordinary, in my opinion.
    And I think the fact that Congress, you know, with the 
trade promotion legislation, the 2015 trade promotion 
legislation, that lays down really high standards for what we 
are trying to achieve, that has extraordinary transparency and 
efforts to include Members of Congress to make sure that they 
understand what is being negotiated in these deals, that there 
is time for not just Congress but also the public to study the 
deal, and then Congress ultimately has the opportunity to 
decide whether they want that deal or not.
    And I think, you know, what is really important is that we 
empower our negotiators with trade promotion legislation that 
lays out what our values are, what is important to us, make 
that very clear. There are 150 objectives, as we have talked 
about today. That is of value to our trade negotiators because 
then the folks on the other side of the table recognize we are 
serious; we are going to get a deal done. They, therefore, can 
take the risk of putting the most aggressive options on the 
table.
    So I think this is absolutely essential for us to get the 
best deal possible.
    Mr. REED. And I so appreciate that, as representing a 
district, a rural district, of western New York and the 
agriculture community, in particular--things like dairy, things 
like apple. We are going through this yogurt renaissance in 
western New York that is going through the roof.
    And I would say that is the type of market access, that is 
the type of negotiation I would hope that you are pursuing, and 
I assume you are pursuing it. And this would be a tool, if you 
agree with this statement, to get you that most aggressive best 
position from these entities available on the table and brought 
back to us here in Congress.
    And one other point I want to stress to the American people 
back home who are concerned about this: This transparency 
reform in this new--this is a new piece of legislation. This 
isn't your grandpa's TPA, as a Member once described to me. How 
many days would people be able to look at the agreement? And we 
live in an environment of 24/7 news cycles, instant access.
    I mean, how many days are we talking that the American 
people are going to see that agreement, they are going to see 
the details of the agreement before it even comes to--any idea? 
I might have an answer for you, but I want to see if my 
understanding is correct.
    Secretary PRITZKER. I think it is 60 days.
    Mr. REED. Yeah, 60 days, possibly 90 days by the time you 
go through the----
    Secretary PRITZKER. I think it is 60 working days and 3 
months, roughly, if you count the weekends.
    Mr. REED. So, in a 24/7 news cycle, I am fairly confident 
that the American people are astute enough, that my colleagues 
that may be opposed to this are astute enough, that if there 
are concerns in the agreement that need to be raised, they will 
be raised. Our phone will be going off the hook, our social 
media sites will be going around the clock, 24/7, and this room 
will be packed with people if you do not fulfill the obligation 
that we know that we need to do here. That is to open markets 
for American workers and creates the jobs of today and tomorrow 
in each and every one of our districts.
    And, with that, I yield back.
    Chairman RYAN. Thank you.
    Mr. Holding.
    Mr. HOLDING. Thank you, Mr. Chairman.
    There has been a great deal of discussion today about the 
automotive industry. And I can tell you that North Carolina 
wants to get in on the action of building cars, particularly in 
eastern North Carolina, where I am from. We have a great 
workforce, and they would do a good job at building cars.
    And our Governor and our North Carolina secretary of 
commerce have been talking to some interesting prospects and 
traveling around, and they run into one constant hurdle which 
they have no ability to do anything about.
    So, Secretary Pritzker, what do you think that hurdle is 
that they run into?
    Secretary PRITZKER. Tariffs and market access, probably.
    Mr. HOLDING. Tariffs. If you want a European car 
manufacturer to come to eastern North Carolina and build cars 
to export back to Europe, it costs tariffs. It is my 
understanding it might cost upwards of $4,000 per car. So these 
manufacturers lose interest in coming to eastern North 
Carolina. And as my colleague Mr. Kind from Wisconsin said, you 
know, perhaps they would choose a country like Mexico, which 
has agreements that can avoid those tariffs.
    So, Secretary Pritzker, are you hearing similar stories 
from around the country, from my colleagues who are running 
into--and your colleagues who are local state secretaries of 
commerce who are running into these complaints?
    Secretary PRITZKER. Congressman, yes. We have heard about, 
you know, tariffs are an impediment in not just the auto 
industry but in numerous industries for selling our goods and 
our manufactured goods around the world.
    But we have an opportunity, with these trade agreements, to 
make the United States the number-one manufacturing platform in 
the world. And I really believe that, you know, by completing 
these agreements, we will not only grow our businesses, we will 
grow jobs in the United States, and wages will grow, as well.
    Mr. HOLDING. So, in your estimation, if we want to build 
cars in eastern North Carolina, we need to pass TPP and TTIP, 
correct?
    Secretary PRITZKER. Yes.
    Mr. HOLDING. And are we going to be able to pass those 
trade agreements through this Congress without TPA?
    Secretary PRITZKER. No.
    Mr. HOLDING. Thank you.
    Mr. Chairman, I yield back.
    Chairman RYAN. Well, it has been a long afternoon. I want 
to thank the three of you, on short notice, setting your very, 
very, very busy schedules aside for the afternoon, indulging 
us.
    You can see that there is some bipartisan support here for 
TPA and for putting these trade agreements together. This is 
one of those rare instances, I think, where a Democratic 
administration, a Republican majority, we can see eye-to-eye on 
a few things; get some things done on behalf of the people we 
represent.
    We all want higher wages, more jobs, faster economic 
growth. We don't always see eye-to-eye on how to do that, but, 
in this particular case, many of us do. I think that is a good 
thing.
    So I want to thank you for coming today.
    And this hearing is adjourned.
    Mr. LEVIN. May I just say a word?
    Chairman RYAN. Yes.
    Mr. LEVIN. Okay.
    I just want to thank you for coming.
    And I just want everyone to remember the constructive 
approach that we on this side are taking. These are major 
outstanding issues--major, major. And it is our deep feeling it 
is not the appropriate point for this Congress to give up our 
leverage.
    But we really appreciate you coming, and we look forward to 
tomorrow. Thank you.
    Chairman RYAN. We will debate the finer points tomorrow, 
but I just want to say thank you very much.
    This hearing is adjourned.
    [Whereupon, at 6:28 p.m., the committee was adjourned.]
    [Questions for the record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
